U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




  OFFICE OF THE SECRETARY


   Management of Commerce’s Federal
     Workers’ Compensation Program
      Needs Significant Improvements
              Final Inspection Report No. IPE-17536/March 2006




                            PUBLIC
                            RELEASE

               Office of Inspections and Program Evaluations
U.S. Department of Commerce                                                                             Final Report IPE-17536 

Office of Inspector General                                                                                        March 2006


                                                   TABLE OF CONTENTS 

EXECUTIVE SUMMARY ............................................................................................................. i

BACKGROUND ............................................................................................................................ 1 

OBJECTIVES, SCOPE, AND METHODOLOGY........................................................................ 9 

OBSERVATIONS AND CONCLUSIONS ................................................................................. 11


I. 	COMMERCE’S CENTRALIZED MANAGEMENT OF ITS WORKERS’ COMPENSATION PROGRAM 

   HAS BEEN INADEQUATE .......................................................................................................... 11 

   A. 	 The Department Needs to Better Manage Its Workers’ Compensation Cases ............ 11 

   B. 	 OHRM Needs to Provide FECA Guidance and More Comprehensive Training ........ 16 

   C.	 The Department Does Not Have an Automated System for Tracking and 

        Monitoring Cases ......................................................................................................... 19 

   D. 	 The Department Does Not Have a Return-to-Work Program...................................... 22 

   E.	  Neither Commerce Nor Its Workers’ Compensation Contractor Routinely 

        Pursues Third Party Claims.......................................................................................... 27 

   F. 	 OHRM Needs to Refer All Cases of Possible FECA Fraud or Misconduct to                                                      

        the Office of Inspector General.................................................................................... 33


II. DEFICIENT BUREAU-LEVEL ATTENTION TO THE FECA PROGRAM MIRRORS WEAKNESSES 

    FOUND IN OHRM .................................................................................................................... 35 

    A. 	 The Bureaus Have Not Effectively Monitored Their Workers’ Compensation 

          Cases............................................................................................................................. 35 

    B.	 Neither OOSH Nor the Bureaus Routinely Determine the Accuracy of

          Charge-back Bills......................................................................................................... 37 

    C. 	 OHRM and Census Need a Plan for Moving Temporary Workers from Past 

          Decennials Off FECA Rolls and for Proactively Managing Future Decennial 

          Claims........................................................................................................................... 40 

    D. 	 USPTO’s Independent Administration of its FECA Program Has Problems.............. 46


III. THE WORKERS’ COMPENSATION CONTRACTOR HAS A RECORD OF STRONG 

     PERFORMANCE ......................................................................................................................... 51 

     A. 	 The Contractor Performed Most of Its Responsibilities Well...................................... 51 

     B. 	 OOSH’s Oversight of the Contractor Is Inadequate..................................................... 54 

     C. 	 OHRM Has Not Adequately Addressed Two Issues Involving the Contract .............. 56

SUMMARY OF RECOMMENDATIONS .................................................................................. 57 

APPENDICES .............................................................................................................................. 61 

     Appendix A - List of Acronyms ............................................................................................. 61 

     Appendix B - OIG Determined Funds To Be Put To Better Use ........................................... 62 

     Appendix C - Office of the Secretary’s Response to Draft Report......................................... 63 

     Appendix D - Census’ Response to Draft Report................................................................... 73 

     Appendix E - USPTO’s Response to Draft Report................................................................. 83 

U.S. Department of Commerce                                                       Final Report IPE-17536 

Office of Inspector General                                                                  March 2006



                                       EXECUTIVE SUMMARY 


The Federal Employees’ Compensation Act (FECA)1 provides medical and salary benefits for
federal civilian employees who suffer work-related injuries or illnesses that prevent them from
working.2 The FECA program pays for medical (and associated travel) expenses related to
employees’ injuries or diseases, provides wage compensation until they can return to work in
either their original positions or a suitable alternative position, and covers vocational
rehabilitation. The basic rate of compensation for injured employees with no dependents is
66.67 percent of gross wages, increasing to 75 percent if employees have one or more
dependents. All workers’ compensation benefits are tax free, and there is no mandatory
retirement age for employees collecting benefits.

The Department of Labor administers the FECA program—allowing or denying claims, paying
benefits, and charging benefit costs back to a claimant’s agency for reimbursement. Besides
bearing the costs of the program, individual agencies are responsible for providing Labor with
pertinent details to inform its decisions about the merits of a claim, for monitoring the status of
their workers’ compensation recipients, and for bringing employees back to work as soon as
possible.
Since 1994, Commerce has had a centralized FECA program, administered by its Office of
Human Resources Management (OHRM). Under this arrangement, the Department centrally
handles FECA claims for all its bureaus except the United States Patent and Trademark Office
(USPTO).3 OHRM and its Office of Occupational Safety and Health (OOSH) provide guidance,
policy, and oversight for the program. OOSH is responsible for taking all appropriate steps to
obtain rightful benefits for eligible employees and their survivors, helping employees file claims,
and submitting requisite documents to Labor in a timely, efficient manner. OOSH also must
work closely with beneficiaries, bureau supervisors, managers, human resources personnel, and
Labor to monitor cases and return employees to work.4 These activities impact Labor’s decisions
on claims, distribution of funds, and ultimately, the annual bill charged back to the Department.
Since October 2002, a contractor has managed a portion of the FECA workload. Currently, the
contractor handles approximately 686 annual short-term claims and 74 long-term claims.
During the most recent charge-back period5 (July 1, 2004 through June 30, 2005), Commerce
paid over $14.4 million in workers’ compensation benefits (Figure 1) and had roughly 1,275
employees on the FECA rolls. Bureau of the Census FECA costs, at $5.59 million, and National
Oceanic and Atmospheric Administration (NOAA) FECA costs, at $5.45 million, together
generate about 76 percent of the Department’s total workers’ compensation costs.



1
  5 USC § 8101, et seq. (2005). See also 20 CFR, Part 10. 

2
  FECA also covers temporary employees and some contract and volunteer employees. 

3
  As of March 2000, USPTO has managed its own workers’ compensation personnel and duties under authority of 

the 1999 American Inventors Protection Act.

4
  Department Administrative Order (DAO) 202-810, Workers’ Compensation For Federal Employees, November 

24, 2004.

5
  Each year, Labor provides the Department with a statement of workers’ compensation expenses incurred between 

July 1 and June 30 of the previous year. Labor also provides quarterly reports to the Department. 


                                                       i
U.S. Department of Commerce                                                                                                   Final Report IPE-17536 

Office of Inspector General                                                                                                              March 2006



 Figure 1: Commerce’s Recent Workers’ Compensation Costs by Bureau
                                                                Compensation Costs from 7/1/2004 to 6/30/2005
                                                                         Total Cost = $14,493,452

                                $5,593,551
                                                                                             $5,457,684
   $5,600,000
   $5,400,00
   $5,200,00
   $5,000,00
   $4,800,00
   $4,600,00
   $4,400,00
   $4,200,00
   $4,000,00
   $3,800,00
   $3,600,00
   $3,400,00
   $3,200,00
   $3,000,00
   $2,800,00
   $2,600,00
   $2,400,00
   $2,200,00
   $2,000,00
   $1,800,00
   $1,600,00
   $1,400,00                                                                      $898,857
   $1,200,00                                                           $732,531
   $1,000,00                                                                                                                                    $577,714
     $800,00         $365,567                                                                                         $237,735 $179,942
     $600,00                                      $825      $111,104                                      $49,595                                            $115,941 $172,405
     $400,00
     $200,00
           $0
                      OS        Census         ESA          EDA        ITA        NIST        NOAA         NTIS       MBDA          NTIA        PTO           BIS          OIG

                (OS) Office of the Secretary                           (NIST) National Institute of Standards and Technology               (PTO) Patent and Trademark Office
                (Census) Bureau of the Census                          (NOAA) National Oceanic and Atmospheric Administration              (BIS) Bureau of Industry and Security
                (ESA) Economics and Statistics Administration          (NTIS) National Technical Information Service                       (OIG) Office of Inspector General
                (EDA) Economic Development Administration              (MBDA) Minority Business Development Agency
                (ITA) International Trade Administration               (NTIA) National Telecommunications and Information Administration



  Source: Department of Labor charge-back report

OIG Review Finds Serious Deficiencies in Commerce’s Administration of the FECA Program
We evaluated the Department’s overall management of the workers’ compensation program to
determine whether Commerce: (1) aggressively minimizes FECA costs by bringing work-
capable claimants back to work as soon as possible, (2) verifies FECA charge-back costs and
ensures they are reasonable, (3) adequately oversees the workers’ compensation contractor, and
(4) effectively coordinates the Department’s safety program with the workers’ compensation
program to identify and modify workplace conditions that contribute to costly injuries. In
summary, we identified the following problems.
Commerce’s Centralized Management of Its Workers’ Compensation Program Has Been
Inadequate. Since at least 2002, OHRM has not actively managed the program, which cost the
Department unnecessary benefit payments. In 2002, all but one OHRM staff member handling
workers’ compensation retired or otherwise left the office. The one remaining FECA specialist
oversaw the Department’s workers’ compensation program alone and served as the contracting
officer’s representative (COR) for the contractor. This individual was also responsible for
managing approximately 450 long-term cases until April 2004, when Commerce transferred 74
of them to the contractor. In addition, the specialist was responsible for maintaining Department
records, serving as a resource to departmental supervisors and employees, and monitoring and

                                                                                   ii
U.S. Department of Commerce                                                             Final Report IPE-17536
Office of Inspector General                                                                        March 2006

evaluating the contractor’s performance.6 This staffing situation, in conjunction with high
turnover in OOSH’s top leadership position, has diminished OOSH’s ability to manage the
FECA program in the Department’s best interest.

In addition to poorly managing short- and long-term cases and not challenging questionable
costs, we found:
        	 OHRM has not provided adequate FECA guidance and effective training;
        	 The Department does not adequately track and monitor cases;
        	 The Department does not have a return-to-work program;
        	 Neither Commerce nor its workers’ compensation contractor routinely pursues third
            party claims; and
        	 OHRM does not refer all cases of possible FECA fraud or misconduct to the Office of
            Inspector General.

Instead, OHRM has relied on the Department of Labor and a contractor to oversee cases and
make long-term financial decisions on departmental claims. It has not adequately monitored the
contractor, maintained proper files, or implemented internal controls. These issues gave rise to a
host of problems, such as:
        	 Improper payments to 2 deceased claimants;
        	 Overpayments to 9 claimants including one who had received $195,000 in
            compensation; and
        	 Continued payments to 17 claimants who remained on the rolls for years after
            medical evidence indicated they could return to work.
As a result, rather than minimize FECA costs and guard against fraud and abuse, OHRM appears
to have allowed opportunities for unnecessary FECA claims (see page 11).
Deficient Bureau-level Attention to the FECA Program Mirrors Weaknesses Found in
OHRM. While OOSH centrally manages the Department’s workers’ compensation program,
Department Administrative Order 202-810 requires oversight by the individual bureaus and
assigns specific responsibilities to them. But 5 Commerce bureaus, paying 89 percent of the
2005 workers’ compensation costs, have relied on OOSH to manage their cases. The 5 bureaus
believe that departmental regulations gave OOSH total responsibility for doing so. In addition,
the bureaus have not routinely monitored their charge-back reports—a key tool for analyzing and
minimizing FECA costs. Although OOSH is not required to distribute the charge-back reports to
the bureaus, when OOSH disseminated the reports, only 7 out of 14 bureaus verified their
accuracy.7 As a result, we found instances in which claimants were able to work, but remained
on the rolls unnecessarily for years. It also should be noted that responsible management of
FECA cases can be very time-consuming and requires the attention of supervisors and managers
who usually are focused on current programs and operations. Hopefully, this report will
highlight the need for greater bureau as well as departmental attention on workers’ compensation
issues.




6
    Safety specialist hired 8/1/05 and workers’ compensation specialist left position on 12/23/05.
7
    See DAO 202-810.

                                                            iii
U.S. Department of Commerce                                            Final Report IPE-17536
Office of Inspector General                                                       March 2006

Our review at specific bureaus identified many FECA management and operational problems,
including those listed below.

       	 Census. The unique nature of intermittent work at Census complicates
          administration of the FECA program. For example, Census reported an estimated
          peak workforce at any one time of 500,000 temporary employees during the 2000
          decennial census. While these workers may be Commerce employees for only a
          limited time, they are eligible for workers’ compensation benefits if injured while
          working for the bureau. Once these employees have recovered or are ready to return
          to work, their length of service should not preclude them from returning to work in a
          short-term position. However, they can remain on Census’ FECA rolls indefinitely if
          they are not offered a job. In fact, our review of Census’ FECA rolls identified 44
          active claims from the 1990 decennial and 183 from the 2000 decennial. Census
          stated that it did not offer new or suitable work opportunities to these individuals
          because its offices for the 1990 and 2000 decennials had closed. Census and OHRM
          need to develop a proactive plan for managing future decennial claims and bringing
          eligible long-term claimants from previous decennials back to work on 2010
          decennial preparations and activities or sooner.

       	 USPTO. The United States Patent and Trademark Office has been responsible for
          independently processing and managing workers’ compensation claims for its
          employees since it became a performance-based organization in March 2000.
          USPTO’s independent administration of its FECA program has problems. For
          example, we found USPTO’s case management was inconsistent; policies, guidance
          and training for supervisors was needed; and the workers’ compensation specialist
          needs a detailed performance plan.
       	 OIG. The Office of Inspector General had several workers’ compensation cases that
          had not been adequately managed at the time we started this review. To address these
          cases, we subsequently had to research the case histories, determine the current status
          of each case, and/or determine the best actions that should be taken for these
          individuals. We have returned 1 worker back to work full-time and 2 have returned
          on a part-time basis (see page 35).
The Workers’ Compensation Contractor Has a Record of Strong Performance. We
evaluated the contractor’s performance in meeting 10 of 11 contract deliverables and found that
it had met expectations in all but 1 area. We did not determine whether the contractor developed
and provided materials to improve timely submission of claims because Labor case statistics
indicated the Department has met its timeliness objectives. The contractor has instituted sound
operating procedures and has capable, well-trained staff handling Commerce FECA claims.
However, the OOSH specialist, in her role as contracting officer’s representative, did little to
monitor the contractor’s performance. During our review, we found evidence that she seldom—
if ever—reviewed and acted upon reports submitted by the contractor and did not forward cases
of suspected fraud the contractor identified to the Office of Inspector General. She did not visit
the contractor’s facility, to verify consistency of service, as required by the contract, until we
initiated our evaluation. When she did visit, we were informed that she did not examine any case
documentation.
                                                iv
U.S. Department of Commerce                                             Final Report IPE-17536
Office of Inspector General                                                        March 2006


While the contractor’s solid performance is particularly notable, there are two issues that need to
be resolved with its 2002 contract and its 2004 amendment. OHRM did not develop the required
metrics to evaluate the contractor’s performance. In addition, the 2004 amendment did not
clearly specify that the contractor must maintain 74 long-term cases or replenish long-term cases.
Currently, the contractor is reviewing 66 cases (see page 51).
On page 57, we list a summary of our recommendations for addressing these concerns.



In his response to our draft report, the Chief Financial Officer and Assistant Secretary for
Administration indicated that the Department found merit in most of the 25 recommendations
addressed to it and the Census Bureau. However, he indicated that the Department finds it
difficult to implement 2 recommendations because of budgetary constraints and Department of
Labor regulations. Specifically, for recommendation 7, the Department has not yet found a
viable and cost effective automated information system to implement to better manage its FECA
cases, although it has reportedly taken some steps to automate its caseload. For recommendation
25, the Department believes that a legislative or regulatory change by the Department of Labor
may be necessary to develop a viable return-to-work strategy for Census’ temporary decennial
enumerators who are injured on the job. The Department also emphasized that it had taken a
number of actions since November 2005, to improve its workers’ compensation program. This
includes (1) notifying Labor of 183 workers’ compensation claims that may have been caused by
a third party, (2) reviewing every long-term case file, (3) identifying every claimant who had
filed timely for disability retirement with the Office of Personnel Management so that it could
notify them of their benefit and retirement options, and (4) developing a supervisor’s handbook
on OWCP guidelines.

The Department also asked that our report emphasize that DOL must take a stronger role in three
specific areas: third party claims, discontinuance of payments to claimants who have died, and
double payments to claimants. We agree that all three of these areas need closer management
oversight by both Commerce and Labor. However, the focus of our review was on the
Department’s management of the workers’ compensation program. Therefore, we have
emphasized the need for Commerce to work more closely with Labor on these issues and to
address their impact on Commerce cases.

In its response to our draft report, the Bureau of the Census provided comments on 12 of the 23
recommendations that were directed to the Department’s Chief Financial Officer. The bureau
concurred with our 2 recommendations specifically addressed to it. The bureau will review its
workers’ compensation cases in conjunction with the Department and develop a comprehensive
workers’ compensation program for the 2010 decennial. However, the bureau disagreed with
our interpretation of Department Administrative Order 202-810. Specifically, the bureau
believes the Department assumes responsibility for the direct management of departmental
workers’ compensation cases, with each bureau playing a minimal role in FECA case
management. As outlined in our report, we believe that DAO 202-810 requires departmental
supervisors and managers, in conjunction with the Department’s Office of Human Resource
Management, to play an active role in working with their employees who are on workers’

                                                v
U.S. Department of Commerce                                              Final Report IPE-17536
Office of Inspector General                                                         March 2006

compensation and take action to bring claimants back to work as soon as possible. We also
emphasize the need for the bureau to review Labor’s charge-back reports and take other actions
to minimize its FECA costs.

The United States Patent and Trademark Office, in its response to our draft report, stated that, in
general, it agrees with our findings and accepts the 7 recommendations addressed to it in their
entirety. USPTO indicated that it will work more closely with the Labor Department on its
FECA cases and reports that it has already taken actions on some recommendations. USPTO
stated that it has (1) reduced the number of claimants listed on its annual charge-back by nearly
28 percent, (2) initiated efforts to recover an overpayment in benefits, (3) acquired access to
Labor’s Agency Query System, (4) created a spreadsheet to manage all claimants, and (5)
planned to perform monthly status checks on claimants.




                                                 vi
U.S. Department of Commerce                                                       Final Report IPE-17536 

Office of Inspector General                                                                  March 2006



                                             BACKGROUND 


The Federal Employees’ Compensation Act (FECA)8 provides medical and salary benefits for
federal civilian employees who suffer work-related injuries or illnesses that prevent them from
working.9 The FECA program pays for medical care related to employees’ injuries or diseases
and provides wage compensation until they can return to work in either their original position or
a suitable position that meets medical work restrictions. If an employee works in either position
for 90 days, Labor will consider the position suitable and close the employee’s workers’
compensation case. If the claimant does not receive wages equal to that of his or her prior
position, Labor will pay the difference and charge that amount to the original employing agency.

Two types of work-related injuries qualify for FECA coverage:

    1.	 Traumatic injuries—wounds or other conditions caused by external force, stress, or
        strain, within a single day or work shift. For example, employees who slip at work and
        sprain their ankle have suffered a traumatic injury. They are entitled to continued pay,
        subject to normal deductions, until they can return to work. Once they exhaust 45 days of
        continued pay, there is a 3-day waiting period before they begin receiving workers’
        compensation benefits.

    2. 	 Occupational illness or disease—a physical condition produced by the work environment
         over a period longer than one workday or shift. For example, employees who develop
         carpal tunnel syndrome from performing duties every day over the course of several
         years would file a claim for an occupational illness. Such employees may use sick or
         annual leave until Labor approves and issues their benefits.

The basic rate of compensation for injured employees with no dependents10 is 66.67 percent of
gross wages, increasing to 75 percent if employees have one or more dependents. Benefits also
cover expenses for medical care, related travel, and vocational rehabilitation. All workers’
compensation benefits are tax free, and there is no mandatory retirement age for employees
receiving workers’ compensation. If the employee dies as a result of the injury or illness,
surviving spouses, parents, and dependent children are eligible for benefits. Surviving spouses
receive 50 percent of the deceased’s wages. Depending on the number of surviving dependent
children, benefits increase but never exceed 75 percent of the deceased’s wages.

From July 2003 to June 2004, the federal government paid more than $2.4 billion in workers’
compensation for medical and death benefits and wage loss.11 The Department of Labor, which
administers the FECA program through its Office of Workers’ Compensation Programs
(OWCP), estimates that removing a single fraudulent claim from federal rolls saves the
government $300,000 to $500,000 per claim.


8
  5 U.S.C. §8101, et seq. (2005). See also 20 CFR, Part 10. 

9
  FECA also covers temporary employees and some contract and volunteer employees. 

10
   Dependents include spouses and/or children.

11
   September 2005 Semi-Annual Report to the Congress, Department of Labor, Office of Inspector General. 


                                                       1

                                                       1
U.S. Department of Commerce                                                      Final Report IPE-17536
Office of Inspector General                                                                 March 2006

The Administration’s 2007 budget proposes legislation to update the FECA program’s benefit
structure, adopt best practices of state workers’ compensation systems, and strengthen return-to
work incentives. The proposed legislation would convert prospectively retirement-age
beneficiaries to a retirement annuity-level benefit, impose an up-front waiting period for benefits,
streamline claims processing, permit Labor to do more to recapture compensation costs from
responsible third parties, and make other changes intended to improve and update FECA. On a
government-wide basis, these reforms are expected to produce significant savings.

OWCP has 12 district offices nationwide that adjudicate employees’ claims and pay benefits, the
cost of which is charged back to the employee’s agency. Labor’s claims examiners, nurses, and
vocational rehabilitation experts monitor those who receive workers’ compensation benefits in
an effort to advance employees’ return to work. Labor offices approve benefits after employees
or their care providers submit medical documents in conjunction with requests for
reimbursement and other benefits.

Labor classifies FECA claims as either short-term or long-term. In short-term cases, an
employee is injured, recovers, and generally returns to work within 60 days. If an employee’s
disability lasts more than 60 days, Labor designates the claim as a long-term “periodic roll” case
and pays benefits every 28 days. Labor requires additional medical information for long-term
claimants only once a year or once every three years.12

Once Labor approves benefits, it lists claimants on quarterly and annual charge-back reports that
it sends to the claimants’ federal agencies. The report is a statement of FECA costs a federal
agency incurs.13 It details claimants and their component organizations, medical and monetary
compensation totals, the number and dollar amount of payments issued, and type of claim (short
term or periodic roll) for each claimant.

If an agency does not have a suitable position available when a claimant is ready to return to
work, Labor can approve vocational rehabilitation, including training, and education—all paid
for by the agency—to retrain or improve claimants’ skills and marketability for jobs outside of
the employing agency. Labor determines the vocational rehabilitation status for these claimants
and does not need agency approval to begin retraining. However, the agency must continue to
pay benefits, rehabilitation costs, and medical fees for periodic roll employees until they return to
work or retire.

A successful FECA workers’ compensation process involves coordination among a number of
participants. Claimants and physicians must update Labor on medical progress and work
restrictions. Labor’s primary mission is to approve and issue benefits to injured employees and
assist them with return to work through rehabilitative benefits and programs. The Department,
through its Office of Human Resources Management (OHRM), supervisors, bureaus, and the
contractor, is responsible for managing Commerce cases, returning employees to work, and
maintaining controls on cost, waste, and fraud. Successful case management in Commerce also

12
   Department of Labor “Resource Book Training for Federal Employing Agency Compensation Specialists,” p.

278, April 1999 and Department of Labor handout, “The Periodic Roll Unit is Designed to Maintain and Monitor

Cases of Long-Term Disability,” p. 1, (date unknown). 

13
   FECA costs include agency charges for benefits and administrative charges. 


                                                       2

                                                       2
U.S. Department of Commerce                                                                                        Final Report IPE-17536 

Office of Inspector General                                                                                                   March 2006


requires frequent communication with other participants in the process to monitor their activity
(see Figure 2).

                           Figure 2: Participants in the FECA process




                                  Department
                                      of
                                            OIG
                                    Labor


                                OHRM
                                                         Claimants
                                       Contractor

                               Medical                                 Supervisors
                                Care
                              Providers     Managers                                   Bureaus


                           Source: Office of Inspector General

Department of Commerce FECA Program

Commerce has a centralized FECA program managed by OHRM. The Office of Occupational
Safety and Health (OOSH), within OHRM, is responsible for providing guidance, policy, and
oversight for the program.14 The office must also take all appropriate steps to obtain rightful
benefits for eligible employees and their survivors. OOSH and its workers’ compensation staff
help employees file claims and submit requisite documents to Labor in a timely, efficient
manner. FECA             Figure 3: OHRM Organizational Chart
regulations                                                                        Director
                                                                    Office of Human Resources Management
require an agency
                                                         Director                                                Director
to complete and                    Office of Human Capital Planning and Management                 HR Information Technology Group

transmit claim                                           Director
                                     Office of Training and Knowledge Management
                                                                                                 Accountability and Oversight Officer


application forms                                     Administrative
                                                          Officer
within 10
                                                                                Deputy Director
business days                                                       Office of Human Resources Management
after an injured                                                        Director                            Director

employee notifies                                            Office of Policy and Programs   Office of Human Resources Operations

                                                                        Director                           Director
his/her supervisor                                           Office of Executive Direction Office of Occupational Safety and Health

or agency about                                                                               Workers' Compensation Specialist

the injury.15 To                                                                                       Safety Specialist
facilitate Labor’s                                                                                 Began work on August 1, 2005


decision making,         Source: OHRM web site


14
     Office of Human Resources Management web site, available at http://ohrm.os.doc.gov/.
15
     20 CFR 10.110.

                                                                      3

                                                                      3
U.S. Department of Commerce                                                                                                        Final Report IPE-17536
Office of Inspector General                                                                                                                   March 2006

OOSH also inquires about the status of cases and identifies problem areas or issues that are
important to the Department.16 OOSH also must work closely with beneficiaries; bureau
supervisors, managers, and human resources personnel; and Labor to oversee cases and return
employees to work.17 Information from these parties may impact Labor’s decisions on claims,
distribution of funds, and ultimately, the annual bill charged to the Department.

During the most recent annual charge-back period (July 1, 2004 through June 30, 2005),
Commerce paid over $14.4 million in workers’ compensation benefits.18 Figure 4 shows the
charge-back amounts by bureau. Bureau of the Census (Census) at $5.59 million and National
Oceanic and Atmospheric Administration (NOAA) at $5.45 million together generate about 76
percent of the Department’s FECA costs.

 Figure 4: Commerce’s Recent Workers’ Compensation Costs by Bureau
                                                                  Compensation Costs from 7/1/2004 to 6/30/2005
                                                                           Total Cost = $14,493,452

                                  $5,593,551
                                                                                               $5,457,684
     $5,600,000
     $5,400,00
     $5,200,00
     $5,000,00
     $4,800,00
     $4,600,00
     $4,400,00
     $4,200,00
     $4,000,00
     $3,800,00
     $3,600,00
     $3,400,00
     $3,200,00
     $3,000,00
     $2,800,00
     $2,600,00
     $2,400,00
     $2,200,00
     $2,000,00
     $1,800,00
     $1,600,00
     $1,400,00                                                                      $898,857
     $1,200,00                                                           $732,531
     $1,000,00                                                                                                                                    $577,714
       $800,00         $365,567                                                                                         $237,735 $179,942
       $600,00                                      $825      $111,104                                      $49,595                                            $115,941 $172,405
       $400,00
       $200,00
             $0
                        OS        Census         ESA          EDA        ITA        NIST        NOAA         NTIS       MBDA          NTIA        PTO           BIS          OIG

                  (OS) Office of the Secretary                           (NIST) National Institute of Standards and Technology               (PTO) Patent and Trademark Office
                  (Census) Bureau of the Census                          (NOAA) National Oceanic and Atmospheric Administration              (BIS) Bureau of Industry and Security
                  (ESA) Economics and Statistics Administration          (NTIS) National Technical Information Service                       (OIG) Office of Inspector General
                  (EDA) Economic Development Administration              (MBDA) Minority Business Development Agency
                  (ITA) International Trade Administration               (NTIA) National Telecommunications and Information Administration



 Source: Department of Labor charge-back report

Centralized management. Prior to 1994, each bureau administered its own workers’
compensation program. In January 1994, the Department centralized its workers’ compensation



16
   DAO 202-810. 

17
   DAO 202-810. 

18
   Labor provides the Department with quarterly and annual reports summarizing workers’ compensation expenses

incurred for each employee. 


                                                                                        4

                                                                                        4
U.S. Department of Commerce                                                        Final Report IPE-17536
Office of Inspector General                                                                   March 2006

personnel by moving them from individual bureaus and placing them in OHRM.19 By 1999, 11
full-time employees managed workers’ compensation rolls and the Department was considering
outsourcing some case management duties shared by those employees.20 Each bureau generally
has a safety specialist who handles workers’ compensation matters as a collateral duty, but, with
the exception of the U.S. Patent and Trademark Office (USPTO), there are no full-time workers’
compensation specialists.

On October 1, 2002, the Department awarded a contract to a Texas company, for a base period of
1 year, with the option to renew annually until September 30, 2007. The contractor was asked to
manage up to 1,600 of the Department’s short-term workers’ compensation claims for a firm,
fixed price of $499,999 per year. At the time of the contract award, the Department had 750
short-term claims and anticipated an average of 800-850 new claims per year.

Between October 1 and November 30, 2002, all but one OOSH staff member handling workers’
compensation left the office for retirement or other opportunities. In addition to managing the
Department’s workers’ compensation program alone, the remaining individual was also
designated as the contracting officer’s representative (COR) for the contractor. From December
1, 2002, until April 7, 2004, this individual was solely responsible for managing all periodic roll
cases under the Department’s control, maintaining Department records, serving as a resource to
departmental supervisors, and monitoring and evaluating the contractor’s performance. The
specialist estimated that approximately 20 percent of her time was spent talking with supervisors,
employees, and human resources personnel.

On April 7, 2004, the Department amended its contract to have the contractor manage from 74 to
200 of the 450 long-term cases it had at the time. OOSH lacked funding to outsource all 450
cases.21 As a result, OOSH only provided 74 cases to the contractor. The 2004 amendment was
incorporated with the option to extend annually until September 30, 2007.

In August 2005, after we began our review, OHRM hired a second individual (a safety specialist)
to help manage the workers’ compensation program. However, on December 23, 2005, the sole
workers’ compensation specialist left the OOSH staff after accepting another job opportunity.

Employee, Supervisor, and Contractor Responsibilities. Employees who wish to seek
workers compensation benefits complete either Form CA-1 for a traumatic injury or CA-2 for an
occupational disease and submit it to their supervisor.22 Supervisors check that the form is
complete, provide witness statements and contact information, and controvert questionable
claims. They assist employees with appropriate paperwork, provide all relevant information to
the contractor, submit the form and all relevant information, and advise employees about options
for light or limited duty work, if applicable. The contractor reviews the form to ensure that
injuries are work related, verifies the validity of claims according to federal regulations,

19
   On September 24, 1992, our office issued a report that recommended identifying possibilities to centralize the 

workers’ compensation program. Report Number IRM-4589, Evaluation of Department of Commerce Management

of the Federal Employees’ Compensation Act. 

20
   Workers’ Compensation Outsourcing - Position Paper, dated March 27, 2001. 

21
   OOSH staff reviewed the 450 long-term cases, selected 160 as having potential for returning employees to work, 

and forwarded 74 of the 160 cases to the contractor. 

22
   20 CFR 10.100, 20 CFR 10.101, and DAO 202-810.


                                                        5

                                                        5
U.S. Department of Commerce                                                                                       Final Report IPE-17536
Office of Inspector General                                                                                                  March 2006

challenges questionable claims, advises claimants, evaluates eligibility, and/or controverts
entitlement to continued pay. It processes claims to ensure that benefits are paid quickly and
works with employees and their supervisors to help employees return to work (see Figure 5).
Labor will not approve payment for medical care, benefits, or continued pay until it has all the
proper forms and information to adjudicate claims.

Figure 5: Responsibilities for the Workers’ Compensation Program
                                        Workers’
             OOSH1                                                                Supervisor3                              Contractor4
                                      Compensation
                                       Specialist 2
         • Provide workers’       •   Monitor and evaluate             •     Ensure that employees with work-       •   Review and administer all
           compensation               contractor performance.                related injuries receive medical           short-term claims.
           assistance to                                                     attention as soon as possible and
           employees and          •   Develop workers’                       advise them that workers’              •   Review and administer 74
           their supervisors.         compensation programs                  compensation guidance is                   long-term claims.
                                      and maintain                           available from the departmental
         • Conduct program                                                                                          •   Challenge questionable
                                      Department FECA                        contractor and OOSH.
           assessments to                                                                                               claims.
                                      records.
           ensure                                                      •     Complete the supervisor’s section
                                                                                                                    •   Maintain contact with
           compliance with        •   Develop workers’                       of forms and submit proper forms
                                                                                                                        claimants, supervisors, and
           safety and health          compensation input for                 to the bureau safety office, OOSH,
                                                                                                                        Labor to facilitate return-to-
           regulations.               Department reports and                 and the contractor in a timely
                                                                                                                        work.
                                      publications.                          manner.
         • Review and
                                                                                                                    •   Refer possible fraudulent
           analyze injury         •   Serve as a Department-           •     Maintain contact with, and advise
                                                                                                                        claims to Labor, OHRM, or
           and workers’               wide resource on                       employees of the availability of
                                                                                                                        OIG.
           compensation               workers’ compensation                  light and/or limited duty.
           claims to assess           issues.                                                                       •   Provide supervisor training
           causal factors                                              •     Coordinate with the contractor and
                                                                                                                        at the Department’s request.
           and develop            •   Develop workers’                       employee’s timekeeper to modify
           guidance to                compensation training.                 time and attendance reports for        •   Provide monthly status
           prevent injuries.                                                 continuation of pay, as                    reports to the Department.
                                  •   Process death claims                   appropriate.
                                      and manage long-term                                                          •   Maintain current medical
                                      (periodic roll) cases.           •     Provide relevant case information          documentation and monitor
                                                                             and factual evidence to the                rehabilitation of claimants.
                                  •   Prepare reports and/or                 departmental contractor.
                                      analysis.
                                                                       •     Controvert questionable claims
                                                                             and continuation of pay.


     1
       DOO 20-8.
     2
       Responsibilities based on workers’ compensation specialist position description and evaluation.
     3
       DAO 202-810.
     4
         2002 Contract, 2004 Amendment, and DAO 202-810.


Source: Office of Human Resources Management and Sources Listed Above


Both OOSH and the contractor are also responsible for initiating efforts to return employees to
work.23 The contractor advises employees about what documents are needed to support their
claims, notifies them of the status of their claim, initiates efforts to secure light or limited duty
assignments, and forwards updates and correspondence to the Department’s COR. As part of the
process, the contractor maintains copies of claim forms and supporting documents, and provides
periodic reports to the Department. The contractor closes its case files when employees return to
work and when short-term cases enter the periodic roll. When the contractor closes case files, it
sends them back to the Department (see Figure 6).




23
     DAO 202-810.

                                                                             6

                                                                             6
U.S. Department of Commerce                                                                          Final Report IPE-17536
Office of Inspector General                                                                                     March 2006

Figure 6: Commerce’s FECA Process For New Claims
                               CA-1: Traumatic Injury
                                     Claim




                           ª




                                                             ª




                                                                                                 ª
                                          or
                               CA-2: Occupational
                                     Disease Claim
At the employee’s               Employee submits                 Supervisor reviews form,              Supervisor signs form and submits
request, the supervisor         claim form to his/her            corrects deficiencies, and if         to contractor.
provides CA-1 or CA-2
claim form.
                                supervisor within 30
                                days from date of injury.
                                                                 in disagreement that the
                                                                 injury is work-related,                            ª
                                Employee must                    makes note of this.
                                establish that the illness       Supervisor must also submit
                                or accident occurred,            supporting documentation if
     Future                     resulted in personal
                                injury, and was work
                                                                 the employee incurs
                                                                 medical expenses or loses
     Cases                      related.                         time from work.

                                                                                                       Contractor reviews form and sends
                                                                                                       it to Labor within 2 days after
                                                                                                       receiving form.

                                                                                                                   ª
                           ª




                                                             ª




                                                                                                 ª
       350
     To Date                    Contractor returns new           Contractor closes cases               Contractor contacts employees with
                                long-term cases to the           when employees return to              any pertinent information, calls
If the Department fails         Department. The                  work or short-term cases              supervisors, and mails claim-
to close long-term              Department becomes               become long term (after ~             related letters to the claimant or
cases, their numbers            fully responsible for            90 days).                             Labor. The contractor acts as an
will continue to accrue.        managing these cases.                                                  intermediary between all parties
                                                                                                       involved in the workers’
                                                                                                       compensation process.

Source: Office of Inspector General

United States Patent and Trademark Office Has Managed Its FECA Program Since 2000

The United States Patent and Trademark Office grants patents and registers trademarks as one of
13 Department of Commerce bureaus. USPTO has managed its own workers’ compensation
personnel and duties since October 1, 2000, because the 1999 American Inventors Protection Act
gave the bureau independent control of its budget allocations and expenditures, personnel
decisions and processes, procurements, and other administrative and management functions.24
USPTO oversees all of its own workers’ compensation claims and maintains claimant files in
Crystal City and Alexandria, Virginia. It does not use the Department’s workers’ compensation
specialist or contractor to process its claims.

USPTO’s Compensation and Benefits Branch manages the workers’ compensation program with
one specialist,25 devoted solely to workers’ compensation issues (see Figure 7). This specialist
has worked full-time in this capacity since 2000, except during a detail assignment between fall
2004 and January 2006.26 Prior to 2000, the specialist did not have a workers’ compensation

24
   The American Inventors Protection Act was enacted on November 29, 1999, as Public Law 106-113, and 

amended by the Intellectual Property and High Technology Technical Amendments Act of 2002 (Public law 107

273), enacted on November 2, 2002. 

25
   Within the Workforce Employment Division and the overall Office of Human Resources. 

26
   During this employee’s detail, someone else was assigned to handle her FECA responsibilities. A second

workers’ compensation specialist also worked for USPTO between 2001 and 2003. 


                                                                 7

                                                                 7
U.S. Department of Commerce                                                                                                Final Report IPE-17536 

Office of Inspector General                                                                                                           March 2006


background. But in 2000, the specialist attended workers’ compensation specialist training at
Labor and received guidance from a workers’ compensation staff member in the Department.
The specialist processes and monitors FECA claims and provides advice and answers questions
on workers’ compensation for USPTO personnel.

Figure 7: USPTO Organizational Chart
                                                   Chief Administrative Officer


       Office of Corporate Services                Office of Civil Rights              Office of Human Resources


              Space Acquisition Manager                                                         Executive Resources

              Security and Safety Division                                                Strategic Human Capital Division

        Space and Facilities Management Division                                             Worforce Relations Division

         Employee and Office Services Division                                              Enterprise Training Division

                                                                                           Workforce Employment Division


                                                                                             Compensation and Benefits Branch
Source: USPTO

USPTO’s workers’ compensation process usually begins when an injured employee goes to one
of two health units at its new Alexandria campus or to the health unit in Crystal City. The staff
nurse and doctor provide emergency treatment or first aid, and fill out the proper forms on the
incident or injury. If the employee requires additional medical attention, the health unit staff
provides authorization by filling out another form.27 If an employee does not have to go to the
health unit for an injury, the specialist can e-mail the employee the necessary forms and ensure
completed forms are sent to the Department of Labor. The workers’ compensation specialist acts
as the liaison between USPTO, Labor, the claimant, and the supervisor, as necessary.
Office of Inspector General 1992 Report on Workers’ Compensation
On September 24, 1992, our office issued a report on the Department’s management of the
FECA program. Table 1 compares the recommendations of that report to the recommendations
of this review. Five of the major recommendations in both reports are similar. These overlaps
highlight that major problem areas in Commerce’s FECA program, as identified in the 1992
report, remain almost 14 years later.

 Table 1: Similar Recommendations from 1992 and 2006 OIG Reports
                                                                    Recommendations
     Train supervisors and workers’ compensation specialists on the FECA program.
     Establish a Return-to-Work program creatively designed to reemploy injured employees in meaningful jobs.
     Develop an automated tracking database for workers’ compensation claims.

     Review and verify Labor’s chargeback reports for accuracy.

     Develop a plan with the Census Bureau to minimize FECA costs for temporary decennial workers.
     Source: 1992 and 2006 OIG Reports on Commerce’s FECA Program


27
     Authorization for Examination And/Or Treatment, Form CA-16, U.S. Department of Labor.

                                                                                  8

                                                                                  8
U.S. Department of Commerce                                            Final Report IPE-17536 

Office of Inspector General                                                       March 2006



                     OBJECTIVES, SCOPE, AND METHODOLOGY 


We evaluated the Department’s overall management of the workers’ compensation program to
determine whether it: (1) aggressively minimizes FECA costs by returning work-capable
claimants to the workforce as soon as possible; (2) verifies the accuracy of FECA charge-back
costs and analyzes costs to ensure their reasonableness; (3) provides adequate oversight of the
workers’ compensation contractor; and (4) effectively coordinates its safety program with the
workers’ compensation program to identify and modify workplace conditions that contribute to
costly injuries. We conducted our evaluation in accordance with the Quality Standards for
Inspections issued by the President’s Council on Integrity and Efficiency in 2005, and under
authority of the Inspector General Act of 1978, as amended, and Department Organizational
Order 10-13, dated May 22, 1980, as amended.

To accomplish our objectives, we performed the following tasks:

   	 Reviewed appropriate and relevant laws, including the FECA, the corresponding Code of
      Federal Regulations (CFR), and the Department’s policies and procedures used to support
      Commerce’s FECA program.
   	 Interviewed officials from OHRM, departmental bureaus, and other government agencies
      to ascertain their understanding and application of FECA laws and regulations,
      requirements, and procedures.
   	 Assessed the adequacy of workers’ compensation information available to Commerce
      employees, supervisors, and bureau human resources offices.
   	 Visited five Department of Labor district offices to review Commerce claimant case files.
   	 Evaluated OOSH oversight of the workers’ compensation contractor by interviewing the
      contracting officer’s representative, examining the contract, interviewing contractor staff,
      and reviewing a sample of case files managed by the contractor.
   	 Identified best practices used by other federal agencies to minimize FECA costs.
   	 Reviewed a random sample of 260 (20 percent) of the Department’s 1,275 workers’
      compensation cases for the period of July 1, 2004 to June 30, 2005. Specifically, we
      reviewed a random sample of 166 short-term and 94 long-term cases charged to Census,
      NIST, NOAA, OIG, and USPTO (see Table 2).

We conducted our fieldwork from August through November 2005 at (1) Commerce
headquarters in Washington, D.C.; (2) Census headquarters in Suitland, Maryland; (3) NOAA
headquarters in Silver Spring, Maryland; (4) NIST headquarters in Gaithersburg, Maryland; and
(5) USPTO headquarters in Alexandria, Virginia. In addition, we visited Department of Labor
district offices in Dallas, Texas; Jacksonville, Florida; San Francisco, California; Seattle,
Washington; and Washington, D.C. We also met with Office of Inspector General and workers’
compensation personnel from the Departments of Interior, Labor, Veterans Affairs, and the
Tennessee Valley Authority. During the review and at its conclusion, we discussed our findings
with the Department’s Chief Financial Officer and Assistant Secretary for Administration, the
Director and Deputy Director of OHRM, and the Director of OOSH.




                                               9

                                               9
U.S. Department of Commerce                                      Final Report IPE-17536 

Office of Inspector General                                                 March 2006


Table 2: OIG Review of Workers’ Compensation Cases
   Labor District
                              Commerce Bureau                  Case Type
        Office
                      Census NOAA NIST PTO OIG Total Periodic Roll Short Term Total
Jacksonville            33    28    0    0    1    62     34           28      62
Seattle                 11    44    0    0    0    55      9           46      55
Washington, DC           7     6   19   20    0    52     17           35      52
San Francisco           26    21    1    0    0    48     17           31      48
Dallas                  29     2    0    0    0    31     17           14      31
No District Specified    0     0    3    9    0    12      0           12      12
Totals                       106      101   23   29    1   260   94        166      260
Source: Office of Inspector General




                                                 10

                                                 10
U.S. Department of Commerce                                                         Final Report IPE-17536 

Office of Inspector General                                                                    March 2006


                               OBSERVATIONS AND CONCLUSIONS 


I. 	   Commerce’s Centralized Management of Its Workers’ Compensation Program Has
       Been Inadequate

Since at least 2002, OHRM and OOSH have not actively managed Commerce’s FECA program,
which has resulted in unnecessary benefit payments. For most of the past 3 years, OOSH had
only one workers’ compensation specialist to oversee the Department’s average yearly caseload
of more than 1,000 claims. This staffing situation, in conjunction with high turnover in the
office’s top leadership position over the past 5 years and limited attention from OHRM
managers, has reduced OOSH’s ability to monitor the FECA program in the Department’s best
interest. OOSH has not tracked the status of each case or attempted to determine if and when
employees may be brought back to work. It has relied on the Department of Labor and a
contractor to oversee cases and make long-term financial decisions on departmental claims.
However, OHRM and its OOSH are responsible for overseeing the Department’s workers’
compensation program.

In addition to poorly managing short- and long-term cases or challenging questionable costs,
OHRM and OOSH did not (1) provide adequate FECA guidance and effective training to
departmental supervisors; (2) implement an automated system for tracking and monitoring cases;
(3) implement a return-to-work program; (4) pursue third parties responsible for claimant
injuries; or (5) refer suspected cases of fraud and abuse to the Office of Inspector General.

A. The Department Needs to Better Manage Its Workers’ Compensation Cases

OOSH estimated that it handles approximately 376 long-term claims, while the departmental
contractor processes approximately 686 short-term claims28 and 74 long-term claims. While
OOSH is responsible for overseeing all departmental claims, it has not actively monitored the
contractor’s or its own caseload, maintained proper files, and implemented proper internal
controls. As a result, rather than minimizing departmental FECA costs and guarding against
fraud and abuse, OOSH has allowed opportunities for unnecessary FECA claims.

Our review of OOSH long-term files revealed that the office provided limited, if any, oversight
for most cases during at least the past 3 years, and even longer for some cases. 29 For the 94
periodic roll or long-term cases, the average age of claimants is 64 years.30 With limited OOSH
oversight, these cases will continue on the Department’s workers’ compensation rolls with little
hope of rehabilitation and/or return to work. The OOSH files were incomplete, lacking analysis,
historical details, and basic, relevant information about claimants. Files showed limited contact
with claimants, supervisors, care providers, and Labor personnel. Labor publication CA-810
states that agencies should “establish a record-keeping system which will enable the agency to
maintain copies of claim forms, medical reports, correspondence with OWCP, and other



28
   Average of the last 4 yearly reporting periods beginning July 1 and ending the following June 30.
29
   OIG reviewed 260 workers’ compensation case files, 232 located at OHRM, 28 located at USPTO.
30
   Based on review of 94 periodic roll cases from our sample.

                                                        11

                                                        11
U.S. Department of Commerce                                                     Final Report IPE-17536
Office of Inspector General                                                                March 2006

materials related to each compensation claim in an orderly fashion.”31 The following three cases
highlight some of the inadequacies we uncovered.

     	 February 1983 case: A claimant had a progressive disability. However, OOSH files
        indicated no oversight of this case for over 21 years, including no requests for vocational
        rehabilitation or assessments for return-to-work potential. The claimant is now over 75
        years old with little possibility for returning to work.

     	 August 1988 case: OOSH files indicated that Commerce paid for vocational
        rehabilitation twice, allowing the claimant to work limited hours outside of Commerce,
        because Commerce could not accommodate him. In August 2001, Commerce asked
        Labor for medical information and a second opinion32 about the claimant’s work status.
        The examining doctor stated that the claimant could work sedentary 8-hour days with
        limited walking, standing, kneeling, and climbing. Four years later, OOSH has not acted
        on the second opinion.

     	 February 1990 case: OOSH files indicated that the claimant was capable of working in
        1996, but OOSH did not ask about his capability to work until 1997. In addition, we
        found no correspondence between OOSH and Labor since July 1997. With the claimant
        currently 55 years old, OOSH could have pursued return to work for the claimant.

Labor determines whether claimants go on the periodic rolls, an action that has long-term
financial ramifications for Commerce. Once Labor approves a case, OOSH and its contractor
may provide new evidence to challenge the facts represented by the claimant and accepted by
Labor. This is a difficult proposition. Yet we found that OOSH has not been actively involved
with cases before Labor makes its decisions. Neither has it consistently asked Labor to take
specific actions such as seeking second or referee33 opinions about a claimant’s eligibility before
moving a case to the periodic rolls. OOSH files contained little, if any, internal Commerce,
Labor, and/or contractor documentation such as requests for current medical information,
functional capacity evaluations, or vocational rehabilitation. In addition, we found few requests
for return-to-work accommodations and little information regarding third parties34 responsible for
claimant injuries (see Table 3).




31
   Labor Publication CA-810, “A Handbook for Employing Agency Personnel,” revised February 1994, Ch. 9-1. 

32
   Labor can schedule a second opinion examination to determine a claimant’s work status. 20 CFR 10.320. 

33
   20 CFR 10.321. 

34
   See page 27. 


                                                     12

                                                     12
U.S. Department of Commerce                                                         Final Report IPE-17536 

Office of Inspector General                                                                    March 2006


Table 3: Commerce Activity in OIG Sample of 231 OOSH Cases35
     1. 53 percent—Cases with contractor activity.
     2. 23 percent—Cases with OOSH activity.*
     3. 19 percent—Cases where contractor requested current medical information.
     4. 14 percent—Cases with bureau activity.*
     5.  6 percent—Cases where OOSH requested second and/or referee opinions.
     6.  6 percent—Contractor requested second and/or referee opinions.
     7.  4 percent—Cases where OOSH pursued return to work for the claimant.
     8.  4 percent—Cases where contractor controverted claims and/or continuation of pay.
     9. 1 percent—Cases where OOSH initiated job offer to claimant.
* OOSH or bureau activity refers to any involvement in a short-term or long-term case during the last 3 years,
  although some of that activity may have been minimal.
Source: Office of Inspector General

Finally, OOSH could not provide an inventory of long-term active or closed cases. The workers’
compensation specialist had never reviewed case files at any of the 12 Labor district offices or
the contractor’s office.36 Labor is not required to provide any information it receives on a case.
Rather, upon request, Labor will provide case information to agencies and employees.37
Therefore, it is imperative that OOSH review case files to obtain information. The specialist did
not know that visiting the Labor district offices was an option. Instead of consistently reviewing
files and taking appropriate follow-up action, OOSH emphasized answering employee workers’
compensation questions, helping employees process claims, and completing workers’
compensation reports. By not visiting Labor district offices, OOSH’s knowledge about
claimants was very limited, including the physical condition of claimants and whether claimants
were overpaid or alive or not.

Because OOSH files were in such poor condition, we visited 5 Labor district offices and the
contractor’s office to review files for the 260 cases in our sample. The Labor files indicated
there was limited OOSH involvement. Consequently, Labor decided to initiate vocational
rehabilitation and authorize second medical opinions for some departmental claimants. In one
instance of limited OOSH involvement, a claimant who was injured in February 1990 received
vocational rehabilitation and took college courses paid for by the Department. Contractor and
Labor personnel stated that OOSH has sought little information and requested few actions for
claimants.

Our review of the files documented other serious problems:

 1.	 Improper payments to work-ready and deceased claimants—Seventeen claimants had
     medical documentation indicating recovery from their work-related injuries, but they
     continued to receive workers’ compensation benefits because OOSH neither periodically
     monitored the physical condition of each claimant, nor attempted to bring them back to work.


35
   Our total case sample included 260 cases, but USPTO independently managed 29 cases.

36
   During our review, the OOSH workers’ compensation specialist visited the contractor site for the first time. 

37
   Labor Publication CA-810, “A Handbook for Employing Agency Personnel,” revised February 1994, Ch. 9-1. 


                                                        13

                                                        13
U.S. Department of Commerce                                                       Final Report IPE-17536
Office of Inspector General                                                                  March 2006

     Two claimants had died of causes unrelated to their injuries but Labor continued to make
     compensation payments to their families. By matching claimant names to Social Security
     records, we identified approximately $48,000 in ineligible payments for the Department.
     Labor is currently pursuing recovery of the funds. After we briefed OHRM officials on our
     finding, they stated that OOSH will compare claimant names against Social Security death
     records38 to identify any who may have died.

 2. Overpayments—Eight claimants received overpayments in prior years that Labor’s Agency
    Query System (AQS) had recognized but these overpayments had not been repaid as of
    November 15, 2005. AQS only identifies overpayments but not amounts. We only
    performed a cursory review of AQS records, which indicated the duplicate payments
    occurred from 11/15/83 to 5/28/02. Although OOSH had access to AQS, it did not identify
    any of these duplicate payments. The office did not proactively review claimant files and
    AQS compensation reports to identify discrepancies, obtain refunds, and lower departmental
    expenditures.

The following are other examples of overpayments to claimants. Claimants who return to work
are supposed to notify OWCP so they can be removed from the FECA rolls. Labor confirmed
that bureaus and claimants are required, but do not always notify OWCP that the employee has
returned to work.39 In addition, one claimant currently on Labor’s workers’ compensation rolls is
still receiving compensation payments despite a change in her case status. In August 2005, this
claimant’s case status was changed to receive only medical benefits from the work-related injury.
Despite the change in the AQS system, this claimant has continued to receive monthly periodic
roll compensation checks. As of January 21, 2006, this claimant has been overpaid $6591.48 by
Labor. Proactive case management of claimant case files, and review of the AQS reports at the
Department, should have identified this error much earlier.

In addition to not reviewing Labor case files, OOSH did not review contractor information. The
contractor provides online notes or comprehensive summaries of each case, which detail all
correspondence between the contractor, Labor, supervisors, and doctors, and document actions
taken. The contractor offered access to these notes. However, OOSH declined access to these
notes, even though there were no additional costs for the access. OOSH could use the notes to
maintain contact with claimants during the initial 45-day period to possibly bring some
employees back to work earlier than expected, and minimize the number of cases that become
long term. The contractor also prepares claimant status reports within 90 days of receiving the
claim and every 120 days thereafter. OOSH did not review these reports and did not follow up
on cases of questionable or changing status with the contractor. OOSH told us in November
2005 that it would begin reviewing contractor recommendations on cases.

OOSH also did not review cases that its contractor indicated had the potential for fraud or abuse.
The contractor considered 20 cases as questionable enough to be referred to the OIG, but OOSH
did not refer the cases to our office,40 until we brought this issue to OHRM managers’ attention.

38
   According to November 2001 congressional testimony, Social Security obtains 90 percent of death reports from
family members and funeral homes and 10 percent from state and Federal agencies. See also 20 CFR 10.527.
39
   U.S. Department of Labor, OWCP, “When the Injured Worker Accepts the Job.” See also 20 CFR 10.525.
40
   See page 33.

                                                       14

                                                       14
 U.S. Department of Commerce                                                        Final Report IPE-17536
 Office of Inspector General                                                                   March 2006

 During the course of our review, we also identified 15 cases that were problematic and we
 referred them to our Office of Investigations. Some of the cases we referred overlapped with the
 cases the contractor recommended for referral.

 We attribute the deficiencies in the Department’s workers’ compensation program largely to the
 following problems:

        	 OOSH has had only one workers’ compensation employee for almost 3 years. In
           December 2002, OOSH went from 11 employees to 1 full-time workers’ compensation
           specialist41 to oversee approximately 376 long-term cases as well as the contractor.
           OHRM failed to replace employees after buyouts and attrition. One employee overseeing
           all cases and directly handling 376 cases (along with other duties) for a Department with
           38,000 employees is untenable, even with contractor support. The specialist emphasized
           that OOSH’s focus has been to ensure claimants receive timely payments, and not to
           manage cases or minimize FECA costs.

        	 OOSH has had frequent management change during the past 5 years. Changing office
           leadership has further diminished OOSH’s ability to properly manage the workers’
           compensation program. From 2000 to early 2005, OOSH had three acting directors and
           three permanent directors (see Figure 8 below).

Figure 8: Tenure of OOSH Directors (2000 to Present)

      Dates          2000             2001              2002            2003          2004         2005

 Director(s)
 of OOSH

    Legend           Acting      Permanent
Source: OOSH

        	 OHRM management has not provided enough attention to the program. OHRM agreed
           that the numerous program deficiencies are the result of inadequate attention by both the
           human resources office and OOSH.

 To improve program management, OOSH told us that it plans to develop an inventory of all
 cases, prepare an electronic file for each long-term case by May 2006, and review all cases by
 January 2008 to determine the case status, and evaluate the return-to-work potential. We believe
 that completing case files by May 2006 is reasonable, but taking 2 years to review all long-term
 case files is unacceptable. OOSH could delay or miss opportunities to return some employees to
 work or otherwise remove them from the periodic roll and thereby cut its FECA costs.




 41
      OOSH hired a second individual in August 2005 to work part-time on the workers’ compensation program.

                                                         15

                                                         15
U.S. Department of Commerce                                                           Final Report IPE-17536
Office of Inspector General                                                                      March 2006

RECOMMENDATIONS

     1.	 Review Commerce’s long-term workers’ compensation cases as soon as possible, and not
         over a 2-year period as planned. This review should include:
            a.	 Evaluating the status of each case and physical condition of each claimant to
                 identify cases with the best opportunity for returning employees to work,
            b.	 Reviewing Labor’s Agency Query System to identify duplicate payments and any
                 other overpayments, and
            c.	 Matching claimant names to Social Security records to identify deceased
                 claimants.

     2.	 Obtain access to contractor case file information to monitor the status of short-term cases.

     3.	 Follow up on all long-term cases returned by the contractor.

     4.	 Review and take appropriate action on cases in contractor status reports.



In its response to our draft report, the Department stated that it had reviewed every long-term
case and identified every claimant who had filed timely for disability retirement with the Office
of Personnel Management. It will use this information to notify affected claimants of important
benefit information and options for them and their families. The Department also noted that it is
developing a detailed action plan, which will include timelines, that will frame forthcoming
discussions between departmental and Office of Inspector General staff.

B. OHRM Needs to Provide FECA Guidance and More Comprehensive Training

OHRM is responsible for establishing policies and procedures for effective and efficient
management of the workers’ compensation program.42 The Department has had a centralized
workers’ compensation program since 1994.43 During the 12 years since the Department
centralized FECA, it issued a policy on workers’ compensation in 1997 and 2004. However,
neither OHRM nor OOSH has issued guidance on workers’ compensation or offered sufficient
training to departmental personnel who oversee workers’ compensation issues. As of November
29, 2005, OHRM provided return-to-work guidance. OOSH confirmed that no guidance had
been issued until that time.

No Guidelines. The lack of departmental guidance for this program is alarming, considering that
supervisors and safety specialists need to comply with FECA and OWCP regulations.44 In our
1992 review on workers’ compensation, we recommended the Department publish policies and
procedures to emphasize aggressive agency actions in FECA claims management. OOSH could
not explain why no procedures had been issued since the Department consolidated the workers’
compensation program in 1994.
42
   DAO 202-810.

43
   See page 4.

44
   Safety personnel for each bureau are given workers’ compensation responsibilities as a peripheral duty. 


                                                         16

                                                         16
U.S. Department of Commerce                                                        Final Report IPE-17536
Office of Inspector General                                                                   March 2006

After we brought this to the attention of OHRM managers, OOSH issued a draft handbook for
supervisors on November 14, 2005, which details how to handle employees who suffer FECA-
eligible injuries or illnesses. The handbook contains four sections: (1) General Workers’
Compensation Information, (2) Safety Responsibilities, (3) Department Administrative Order
202-810, and (4) Department of Labor Office of Workers’ Compensation Programs Forms.
However, the handbook mostly comprises a collection of workers’ compensation forms and the
DAO on workers’ compensation. It is not an adequate document because it does not provide all
Commerce bureaus with clear, comprehensive policies and procedures to implement FECA laws
and regulations, including adequate guidance and steps for supervisors on returning employees to
work, verifying and validating costs, granting continuation of pay, handling third party cases,
and detecting and reporting suspected fraud or abuse.

Limited Training. Departmental personnel have received little training on workers’
compensation from OOSH, the contractor, and/or Labor. Supervisors may not deal with FECA
on a regular basis, so they rely on the OOSH specialist for information about FECA laws,
processes, and procedures.45 The contractor is supposed to develop training when requested, but
OOSH has not asked the contractor to provide training courses. The OOSH compensation
specialist stated that neither the office nor the contractor has (1) developed a training plan,46 (2)
identified training needs of departmental personnel, or (3) recommended that Commerce use
Labor’s FECA training in the absence of any other. OHRM’s training for new supervisors used
to contain a component on workers’ compensation, but this was eliminated a few years ago. The
OOSH specialist did not know why the component was eliminated. The OOSH specialist did
provide some ad hoc training to NOAA ship officers when requested to do so in 2004. However,
without ongoing training, staff cannot effectively communicate with and advise injured
claimants, Labor personnel, doctors, and other interested parties about the status of a claim.

Labor’s OWCP offers free training to all federal workers’ compensation personnel. The
curriculum includes claims processing, documentation and record keeping, and counseling
injured employees. OOSH stated it was aware of the Labor training, but bureau safety specialists
told us that they did not know about it. In our 1992 review on workers’ compensation,47 we also
found the Department had provided limited training to managers and specialists. We
recommended then that Commerce arrange a series of periodic and ongoing training sessions for
workers’ compensation specialists and supervisors, and we reiterate that recommendation.

OHRM and OOSH told us at the conclusion of our review that they would make training a
priority: OOSH would develop training materials and classes on workers’ compensation for all
supervisors and specialists. Census has developed its own workers’ compensation and safety
training—in consultation with OOSH, and OOSH said it would review the bureau’s materials to
ensure they meet minimal Department requirements. In addition, OHRM will reinstate the safety
and workers’ compensation module in training classes for new supervisors.

As of December 30, 2005, OOSH had given three training sessions for bureau personnel,
covering types of claims, causal relationships and benefits, as well as employee and supervisor
45
   Lead Workers’ Compensation Specialist Position Description and Evaluation Criteria. 

46
   The contract has a deliverable for supervisory training. 

47
   See Table 1. 


                                                       17

                                                       17
 U.S. Department of Commerce                                                      Final Report IPE-17536
 Office of Inspector General                                                                 March 2006

 responsibilities in the claims process. OOSH stated that it plans to train all bureau personnel
 responsible for workers’ compensation by September 2008. The new training is a good first
 start, but it is not comprehensive. OOSH’s FECA training should be improved to adequately
 cover returning employees to work, verifying and validating charge-back costs, identifying third
 party liability, and detecting and reporting suspected FECA fraud and abuse.

 Adequate training and guidance are 2 of 15 FECA best practices identified by other federal
 agencies. Table 4 lists those practices and shows which of them Commerce has implemented.
 OHRM is required by departmental guidelines to centrally administer, manage, and operate the
 Department’s workers’ compensation program.48 As shown below, OOSH had not implemented
 most of the best practices suggested by other federal agencies. We discuss best practices 1
 through 15 in this report on the pages listed.

Table 4: Best Practices for Workers’ Compensation Programs Identified by Federal Agencies

                                                                                      Implemented
                             Leadership Commitment                                                       Page
                                                                                        by DOC
 1.   Review program goals and issue departmental guidelines.                        Partially*         16
 2.   Employ a full-time departmental manager and adequate staff.                    Partially**        15
 3.   Provide fraud indicators to supervisors and case specialists.                  No                 17
 4.   Send charge-back bills to the lowest departmental level.                       No                 39
 5.   Establish a department-wide return-to-work program.                            No                 22
                          Aggressive Case Management
  6. Maintain frequent contact with claimants, supervisors, and care providers.      No                 11
  7. Establish an ongoing relationship with Department of Labor personnel.           No                 12
  8. Establish an automated case management system.                                  No                 19
  9. Emphasize that case files should be well maintained.                            No                 11
 10. Challenge questionable claims and continuation of pay.                          No                 13
 11. Monitor and recover costs from responsible third parties.                       No                 27
 12. Oversee departmental short-term and long-term cases.                            No                 11
 13. Coordinate workers’ compensation and safety programs.                           Partially          21
                       Supervisor and Specialist Training
 14. Provide departmental supervisors with policies, procedures, and training.       Partially          16
 15. Provide case specialists with training for effective case management.           No                 16-17
 * OOSH management has reviewed program goals but departmental guidelines have not been issued.
 ** OOSH has had only one workers’ compensation specialist for the last three years.
Source: Lifecare49 and Office of Inspector General




 48
   Per DAO 202-810, OHRM is tasked with overseeing the workers’ compensation program.

 49
   “Critical Elements for a Successful and Cost-Effective Workers’ Compensation Program.” Based on Lifecare’s

 Benchmarking of Successful Public and Private Sector Programs and its Own Experience in Providing Case 

 Management Services to Federal Agencies Since 1995. No date. 


                                                       18

                                                       18
U.S. Department of Commerce                                               Final Report IPE-17536
Office of Inspector General                                                          March 2006

RECOMMENDATIONS

       1.	 Prepare and maintain current, easy-to-access online policies and procedures to help
           Commerce supervisors and managers understand (a) FECA laws and regulations and
           (b) their own FECA roles and responsibilities, including facilitating the return of
           employees to work, verifying and validating charge-back costs, identifying third party
           liability, and detecting and reporting suspected FECA fraud and abuse.

       2.	 Develop a training plan, determine which agency personnel need workers’
           compensation training, and offer the training to them over the coming months, rather
           than over a 2-year period. In the meantime, OOSH should consider utilizing
           OWCP’s training, including its FECA seminar and the FECA supervisor’s workshop,
           as well as in-house training.



In its response to our draft report, the Department indicated that it had taken or planned
numerous actions to address our recommendations, including the following:

   	 It developed a supervisor’s handbook on OWCP guidelines and placed it on the web for
      easy access by supervisors and human resource managers in all departmental bureaus.
   	 It provided training on workers’ compensation through 7 training sessions.
   	 It believes DAO 202-810 provides some guidance pertaining to the Federal Employees’
      Compensation Act, primarily regarding processing of workers’ compensation claims.
      However, the Department stated that the DAO is insufficient in the area of program
      oversight by individual bureaus. It indicated that it was revising the DAO to clearly
      define the roles and responsibilities of Commerce bureaus in managing their workers’
      compensation cases.
   	 It issued Human Resources Bulletin #018 in November 2005, which activates employee
      assignment teams that will create greater bureau involvement in the effort to return
      injured employees to work.

C. The Department Does Not Have an Automated System for Tracking and Monitoring
   Cases

OOSH does not have an automated system to manage its workers’ compensation caseload,
process workers’ compensation claims, and consolidate safety data. It cannot perform simple
statistical or trend analyses to isolate problem areas, recurring injuries, and patterns of possible
abuse. OOSH stated resources have not been invested in an automated system. OOSH does
have access to its contractor’s database as well as to Labor’s Agency Query System and paper
charge-back reports. However, these do not eliminate the Department’s need for its own
automated system, nor do they support all the data gathering and analysis capabilities OOSH
needs to effectively manage the FECA program.




                                                  19

                                                  19
U.S. Department of Commerce                                                         Final Report IPE-17536
Office of Inspector General                                                                    March 2006

Managing paper files is inefficient.

Analysis and oversight. The sheer volume of paper files supporting the Department’s workers’
compensation program makes manual review and analysis almost impossible, especially with
only one staff person handling this responsibility. OOSH needs an automated system to compile
comprehensive information and perform detailed analyses of hundreds of workers’ compensation
cases. Without such a system, OOSH cannot easily determine (1) the status of each case, (2)
current and projected costs, (3) an employee’s potential for returning to work, and (4) actions50
needed to move workers off the rolls or to otherwise aggressively manage cases. OOSH agreed
in November 2005 to create electronic case files as a first step toward establishing an automated
claims tracking database that can be used by all appropriate departmental personnel.

Labor’s AQS is a valuable source of information on case status and compensation history. But
OOSH cannot use AQS to closely monitor Commerce workers’ compensation cases. It does not
capture all case correspondence including current medical reports or provide a tickler system on
when forms are due and medical status updates are needed. If AQS goes down, OOSH has no
backup for accessing this information. It needs a system of its own.

Labor’s paper charge-back reports, submitted quarterly and annually to Commerce, do not
capture comprehensive information for projecting program costs or identifying trends—
something an online system would facilitate. The paper reports only list departmental employees
receiving FECA benefits and costs, and do not allow online review and manipulation. The
bureaus received the charge-back report for the 2004-2005 reporting period in July 2005.
Because the most recent annual charge-back period (7/1/04-6/30/05) covered part of both fiscal
years 2004 and 2005, the bureaus won’t pay their FECA charges until fiscal year 2007. The
bureaus will request funding for FECA charges in fiscal year 2006. NOAA confirmed that the
report is inadequate for budgeting future workers’ compensation costs. In fact, for the 2005
billing period, NOAA underestimated its annual fee to Labor by $1 million.

OOSH had access to the contractor’s database but did not have access to case notes, which
provide weekly status entries on each claim. However, during our review, the OOSH Director
obtained access to the contractor’s case notes. But even this resource still does not replace an in
house system because it does not include data for the estimated 376 long-term cases that OOSH
is responsible for and, should the contract end, OOSH could lose access to information about
cases currently managed by the contractor.

Claims processing. Processing paper claims among the employee, supervisor, the contractor (in
Texas), and Labor is highly inefficient and time consuming. Agencies are required to submit
claim forms to Labor within 10 days of receipt. However, we found that the bureaus took from
14 to 45 days to submit workers’ compensation claims to the contractor—with the average being
26.5 days—and then it took the contractor an average of 7.6 days to get claims to Labor.51 The
contract requires the contractor to submit claims to Labor within 2 days of receipt. Agency
safety specialists stated that claimant and their own inexperience with the FECA forms and
50
   Such actions include requesting second opinions from Labor or following up with bureaus on light-duty 

accommodations. 

51
   Fiscal Year 2004 statistics for first two quarters. 


                                                        20

                                                        20
U.S. Department of Commerce                                                         Final Report IPE-17536
Office of Inspector General                                                                    March 2006

procedures slow processing times. They also noted that they have duties other than processing
workers’ compensation claims, which add to the delay.

In 2005, OOSH reviewed software being developed by Labor that allows online processing
among claimants, supervisors, the contractor, and Labor, but determined that the new software
was not complete and fully tested. Once OOSH has developed its own database of workers’
compensation claims, it will need a product that allows online claims submission. The office
told us it will continue researching commercial and government off-the-shelf products to meet its
need.

Consolidated safety data. OHRM is required by DAO 209-3 to implement an automated
system that compiles data on accidents, injuries, and illnesses in the workplace, and analyze the
data for causes and costs.52 However, OOSH lacks an automated system that can upload and
consolidate bureau safety data.53 Consequently, it cannot efficiently track safety information by
facility and cannot take preventive steps to minimize accidents and workers’ compensation
claims. For example, OOSH could not tell us the number and location of falls that occur at
Commerce headquarters each year. Without this type of information and analysis, OOSH cannot
evaluate whether certain areas of the building need safety modifications to reduce the number of
accidents—a key to decreasing workers’ compensation costs.

OOSH stated that it does not collect accident and injury statistics from the bureaus because it
believes that it is the bureaus’ responsibility to collect such data.54 OOSH stated the bureaus
maintain various safety statistics, but they do not collect data in standardized format, nor is the
bureau data comprehensive.55 OOSH’s workers’ compensation and safety specialists stated that
data is exchanged between the workers’ compensation and safety programs. However, the
specialists emphasized they were concerned about the lack of an automated information system
for data on accidents, injuries, and illnesses, as required by DAO 209-3. OOSH stated that such
a system would greatly increase the efficiency and effectiveness of the workers’ compensation
process as well as the safety program.

RECOMMENDATION

     Develop an automated information system that can be used to:
           a.	 Verify and manage Commerce’s FECA caseload, including:
                       i.	 Giving prompts or reminders for dates when paperwork or medical
                           exams are due, and for periodically checking on spouses’ entitlement;
                      ii.	 Identifying cases that need additional action, have closed, or have the
                           potential to return employees to work; and
                     iii.	 Enabling Commerce personnel to analyze and manipulate the data and
                           identify trends and possible abuse.

52
   DAO 209-3, Injury, Illness, Accident, and Fatality Investigation and Reporting, December 7, 2004. 

53
   OOSH has a strategic goal to implement a safety and health management information system. See Office of

Occupational Safety and Health, Program Status Briefing to the Chief Financial Officer and Assistant Secretary for 

Administration, August 2005. 

54
   DAO 209-3.

55
   Bureau safety statistics were not verified by OIG. 


                                                        21

                                                        21
U.S. Department of Commerce                                                     Final Report IPE-17536
Office of Inspector General                                                                March 2006

            b. Process workers’ compensation claims online; and
            c.	 Consolidate and analyze standardized bureau safety data to help safety officials
                and managers identify and correct problems and take immediate corrective action
                to help prevent future workplace accidents and illnesses.



In its response to our draft report, the Department agrees that automation is a necessary program
enhancement to enable it to better manage its FECA cases. It states that it has been searching for
an off-the-shelf package that is both viable and cost effective. However, the Department has not
yet identified a solution to meet its program needs, and is concerned about the cost of new
system development under the current budget scenario. The response does, however, mention
that OHRM has taken steps to automate its workload.

D. 	The Department Does Not Have a Return-to-Work Program

Throughout the workers’ compensation community, a return-to-work program is recognized as
one of the most effective tools to minimize costs. Federal agencies list a return-to-work program
as a best practice that is essential to an effective workers’ compensation program (Table 4). We
found that OHRM does not (1) monitor the medical status of employees, (2) implement return-
to-work procedures, or (3) ensure supervisors take actions to return employees to work.

OHRM and OOSH have not adequately monitored the medical status of employees. FECA
regulations allow agencies to monitor the medical status of injured employees to return
employees to work at an appropriate time. 56 OHRM acknowledged its responsibility for
monitoring claimants’ medical status and ability to return to work, but has not fulfilled this
departmental requirement.57 OOSH lacks complete files and a comprehensive list of employees
who are eligible to return to work. Since OOSH does not know whether and when claimants
have recovered from their injuries or illnesses, it cannot ensure that bureaus make return-to-work
offers to these eligible claimants.

OOSH monitoring efforts only consisted of sending letters to Labor requesting medical updates.
This approach has been fairly ineffective. When Labor did not respond, OOSH sometimes sent
subsequent letters restating the request and made follow-up calls to Labor claims examiners. We
found that over a 2-year period, in some cases, Labor never responded to multiple requests. In
other cases, OOSH never made more than one attempt to obtain medical information.
Furthermore, OOSH never asked for medical updates in some cases.

FECA regulations permit agencies to write directly to claimants’ physicians for medical
information regarding an employee’s capability to return to work.58 The Health Insurance
Portability and Accountability Act allows physicians to provide this information to agencies only


56
   20 CFR section 10.506. 

57
   DAO 202-810 states OHRM is responsible for monitoring medical evidence and work status and pursuing 

reemployment.

58
   20 CFR 10.506. 


                                                      22

                                                      22
U.S. Department of Commerce                                                          Final Report IPE-17536
Office of Inspector General                                                                     March 2006

if the employee has signed a medical release waiver.59 During the last three years, OOSH rarely
used this option to monitor the medical status of injured employees. However, during our case
review, we saw copies of direct correspondence between previous OHRM specialists and
medical providers. In addition, OOSH could have independently sent “Duty Status Report”
forms60 directly to the claimants’ medical providers. During our review, current OOSH
personnel told us they were unaware these options existed.

Office of Personal Management regulations61 give Commerce and other federal agencies
authority to arrange for medical examinations of compensation claimants at the agencies’
expense.62 While the examination can only be used to determine the employee’s work capacity,
some agencies use it to assist in return to work efforts. The agencies are required to send
examination results to Labor and notify Labor if the employee refuses the examination. The
results do not necessarily affect the employee’s entitlement to compensation, but OWCP can use
the information to take follow-up actions, such as schedule second opinions.

Finally, as mentioned earlier, OOSH could have visited district offices to review case files, but
OHRM staff claimed they did not know this. One OOSH employee did tell us, however, that
compensation specialists may have visited Labor district offices in the last decade. A 1988 letter
in a San Francisco district office case file indicated that OHRM staff conducted cases reviews
there during that year. Since we reminded OOSH of this option, it has visited the Washington,
D.C. district office and established a schedule for visiting other district offices associated with
the highest compensation costs.

We also found that OOSH did not know Labor had liaison staff at the Jacksonville and Seattle
district offices to help federal agencies get the information they need. While visiting these
offices, we talked with the liaisons63 responsible for the Department of Commerce. They told us
that agencies usually contact them after Labor claims examiners have not responded to written
requests, and that they have had no calls or interaction with any Commerce employee.

OHRM and OOSH have not properly implemented return-to-work procedures. According to
Labor, the longer employees are out of work, the more difficult it is for them to return. FECA
provisions indicate that injured employees must return to suitable light, limited, or regular duty
employment as dictated by their medical restrictions64 and require that “the employer should
advise the employee in writing as soon as possible of his or her obligation to return to work.”65
OWCP emphasizes in its training that employers should have a plan to return injured employees
to suitable employment.66 Several OHRM employees acknowledged that the Department does
not have a return-to-work program, which they attributed to limited resources and management’s

59
   “Returning Injured Employees to Work,” OWCP Online Training and Presentations, page 9.

60
   Agencies may send these forms to physicians at anytime to inquire about an employee’s ability to return to work 

and obtain work restrictions. 

61
   5 CFR, Parts 339 and 353. 

62
   Labor Publication CA-810, “A Handbook for Employing Agency Personnel,” revised February 1994, Ch. 6-4. 

63
   San Francisco and Dallas do not have agency liaisons. We did not confirm the availability of liaisons in the 

remaining eight districts. 

64
   20 CFR 10.515. 

65
   20 CFR 10.505. 

66
   “Returning Injured Employees to Work,” OWCP Online Training and Presentations, page 3. 


                                                        23

                                                        23
U.S. Department of Commerce                                                           Final Report IPE-17536
Office of Inspector General                                                                      March 2006

lack of emphasis on this aspect of the FECA program. As a result, Commerce has been paying
benefits to employees who are able to work.

During our review, we found no evidence that OOSH formally notified claimants they were
expected to return to work after receiving medical clearance. Neither did OOSH emphasize to
supervisors the importance of maintaining continuous contact with employees during recovery,
especially within the initial 45 days following injury. Furthermore, OHRM has not given the
bureaus guidance for creating light and limited duty positions nor developed creative solutions
for placing recovered employees elsewhere in the Department if their employing bureaus cannot
accommodate them.

In the absence of clear guidelines from OHRM, the bureaus do not know what constitutes proper
return to work procedures and sometimes mishandle the process. In one of our sample cases, an
employee suffered a back injury on the job in 2003. In March 2004, an independent medical
evaluation released the employee to work 8 hours a day with permanent restrictions from
pushing or pulling anything heavier than 20 pounds and from lifting more than 15 pounds. Since
the bureau indicated it would be unable to accommodate his physical limitations, Labor provided
vocational rehabilitation to the employee at Commerce’s expense. After the claimant completed
vocational rehabilitation, his compensation benefits were reduced. However, he remains on the
rolls, because Commerce has not found a position for him and he has not gained full employment
elsewhere. Labor’s June 2005 chargeback report shows that for the preceding year, the claimant
received $66,353.90 in compensation (excluding medical expenses). This employee will
continue to receive compensation unless he becomes fully employed.

OOSH needs to ensure that supervisors take appropriate actions to return employees to suitable
work. Prior to our review, only a claimant’s immediate supervisor determined whether the
bureau could accommodate a returning employee’s job needs. When informed of a claimant’s
restrictions, many supervisors in our sample cases immediately notified OOSH or the contractor
that they could not offer light or limited duty.67 In some cases, there was no documentation to
demonstrate that the supervisors made any attempts to accommodate employees or supervisors
did not always provide reasons for their inability to offer suitable work arrangements. When
supervisors provided reasons, OOSH did not verify their validity.

If employees are able to resume regular duty after injury, most return to work on their own. Out
of the 231 cases in our sample, 105 employees or 45 percent returned to work on their own
accord without need for accommodation. Problems occurred when bureaus had to make
accommodations. Out of the 41 cases that required accommodations, 23 employees or 56
percent were not accommodated and did not return to work. Supervisors did not have return-to
work guidance and OHRM did not provide oversight to ensure supervisors offered suitable work
when necessary. Our case file reviews and Labor and contractor interviews indicate some
supervisors (1) may not have understood their workers’ compensation responsibilities and
unintentionally failed to provide light or limited duty assignments, (2) may not have wanted an
employee to return to work, or (3) could not provide suitable work.
67
  Light duties are duties and responsibilities outside an employee’s regular position that meet the employee’s work
capabilities. Limited duties are specific duties and responsibilities of an employee’s regular position that meet the
employee’s current work capabilities. See DAO 202-810.

                                                         24

                                                         24
U.S. Department of Commerce                                                        Final Report IPE-17536
Office of Inspector General                                                                   March 2006

In the following two examples, the Commerce employees recovered from their injuries but their
agencies did not accommodate their work restrictions. As a result, these employees remain on
workers’ compensation.

     	 In March 2000, an employee injured himself on the job. Since the injury, he experienced
        anxiety attacks and his medical report stated that he would not be able to work at his
        current job. Since the bureau did not provide suitable work, he was placed in vocational
        rehabilitation. On the April 2001 work tolerance form,68 the physician indicated the
        employee was capable of working eight hours a day. However, the claimant remains on
        the compensation rolls. The June 2005 chargeback report stated this employee received
        $19,380 in compensation during the previous year.

     	 In April 2000, an employee injured herself while performing her work duties. After
        receiving surgery, she was released to limited duty. At that time, a Labor claims
        examiner noted that the agency was resistive to limited duty. After the employee
        returned to work, she re-injured herself, but was released again to limited duty in
        December 2000. The employee stopped working in January 2001, because the agency
        could not accommodate her medical restriction. A May 2001 second opinion
        examination supported the restriction. Both a second opinion doctor and the claimant’s
        physician wrote in July 2003 that the employee could work light duty with restrictions,
        but since she has not received a job offer from Commerce, she still remains on FECA
        rolls. The June 2005 chargeback stated the employee received $9,980 in compensation
        during the previous year.

During our review, OHRM developed a return-to-work policy bulletin. On November 29, 2005,
the office sent the bulletin to all bureau safety managers and principal human resource managers.
Figure 9 lists the procedures OOSH plans to follow to help return recovered employees to work.
OOSH is currently in the process of applying these procedures. Its success has been limited so
far, since one employee’s second opinion report supported total disability and another employee
rejected a job offer. Having procedures in place for future employees who recover from injury
or illness is a positive step, but we believe OHRM should take further action to return recovered
claimants who currently remain on workers’ compensation.




68
  The work tolerance form indicates the number of hours an employee can work and the type of activities that can
be performed.

                                                       25

                                                       25
U.S. Department of Commerce                                                         Final Report IPE-17536 

Office of Inspector General                                                                    March 2006


Figure 9: Commerce Workers’ Compensation Return-to-Work Procedures
     1.	 The OOSH Director will establish an employee assignment team after receiving
         notification that an injured employee can return to work.
     2.	 A representative from the employee’s human resources servicing office, the first-line
         supervisor, and a bureau/office senior management official will be members of the team.
     3.	 The team will review the employee’s workers’ compensation file and physician’s medical
         recommendations to formulate a return-to-work plan.
     4.	 If feasible, the team will make a return-to-work recommendation, including a proposed
         job assignment and any associated medical accommodations required, to the bureau/office
         appointing authority.
     5.	 The bureau/office appointing authority will accept or reject the return-to-work
         recommendation and return his/her decision in writing to the OOSH Director.
     6.	 If the return-to-work plan is rejected by the appointing authority, the OOSH Director will
         notify the Chief Financial Officer and Assistant Secretary for Administration of the
         appointing authority’s decision to not return the employee to work.
Source: OHRM Human Resources Bulletin #018, Effective November 29, 2005

RECOMMENDATIONS

     1.	 Monitor the medical status of injured and ill employees by:
           a.	 Obtaining medical information from Labor and/or employees’ physicians;69
           b.	 Conducting case reviews at Labor district offices;
           c.	 Establishing a relationship with Labor’s liaison staff who can be contacted when
               Labor claims examiners do not respond to written requests; and
           d.	 Arranging and paying for independent medical examinations to determine
               employees’ work capacity, as necessary, if Labor does not take action on
               claimants’ cases.

     2.	 Expand OHRM’s recently issued return-to-work procedures to identify specific
         responsibilities for the employee, supervisor, and bureau, including guidance on
         developing limited- and light-duty positions.

     3.	 Incorporate creative approaches, such as telework or light-duty work pools across the
         Department, when bureaus cannot make suitable job offers.

     4.	 Determine if suitable job offers can be made for current work capable employees who
         were previously not offered positions and, where possible, return them to work.




69
  The Health Insurance Portability and Accountability Act allows physicians to provide this information to agencies
only if the employee has signed a medical release waiver.

                                                        26

                                                        26
U.S. Department of Commerce                                                         Final Report IPE-17536 

Office of Inspector General                                                                    March 2006




The Department did not specifically address these recommendations in its written comments on
our draft report. But it did attach its November 2005 Human Resources Bulletin #018, which
outlines the Department’s return-to-work policy and the establishment of employee assignment
teams, composed of bureau officials, who will work with OHRM to return employees to work on
a full-time or light-duty assignment.

The Department’s response to our draft report also notes that efforts to return temporary
decennial census workers to work is complicated by current Department of Labor regulations
that mandate that such FECA claimants must receive at least a 90-day job offer while most
Census enumerator position appointments are for 45 days. The Department stated that it will
continue to work with DOL and the Census Bureau on a solution, recognizing that a legislative
or regulatory change by DOL may be necessary.

In its response to the draft report, Census stated that it is prepared to make every effort to return
workers to employment as soon as possible, but reiterated its belief that the real need is to extend
creative thinking outside federal employment and to solicit Labor’s agreement to help identify
jobs in the private sector for returning Census FECA claimants.

E. Neither Commerce Nor Its Workers’ Compensation Contractor Routinely Pursues Third
   Party Claims

OOSH has not identified and                       Figure 10: Third Party Definition and Examples
encouraged employees to pursue
                                                  Third Party Claim: If a person or company is not working
recoveries from third parties                     as a federal employee or operating as a federal agency,
responsible for claimant injuries. The            they are considered third parties. If third parties cause
Department’s contractor also has not              injuries to a Commerce employee while in work status, they
routinely encouraged employees to                 are liable for the injuries they caused, even if they are only
pursue third parties. Approximately               responsible for part of the employee’s injuries.
16 percent of our sample (38 cases)               Common examples of third party injuries include:
involved third party injuries.70                   Car accidents – third parties involved in car accidents
However, OOSH did not manage                         with Commerce employees should pay for the injuries
employees’ pursuit of these parties in               they cause.
all 38 cases. This inaction has been                 Trips and falls on private property – property owners
costly. A lack of OOSH oversight and                  should pay if a Commerce employee is injured because
untrained bureau staff and supervisors                of the condition of the property.
have resulted in failure to push                     Broken chairs and other equipment – manufacturers of
employees to seek recovery from third                 equipment used by Commerce employees should pay
                                                      for injuries that occur when the equipment fails.
parties or their insurance companies.
                                                  Source: Department of Labor
Without OOSH’s knowledge, at least
13 Commerce claimants attempted to recover from third parties under Labor’s direction.
70
  Labor subsequently denied benefits for 3 of these claims due to reasons unrelated to third party involvement.
Despite Labor’s decisions, these claims still provide information about the Department’s involvement in third party
claims.

                                                        27

                                                        27
U.S. Department of Commerce                                                      Final Report IPE-17536
Office of Inspector General                                                                 March 2006

However, OOSH has made no apparent effort to emphasize the need for claimants and
supervisors to identify third party involvement on FECA claim forms or follow up with Labor on
third party claims. Our file reviews also indicate that some employees and supervisors do not
understand what third party means or that failing to pursue third parties can cost the Department.

FECA provides compensation for work-related injuries caused or worsened by private parties
who are not engaged in activities for the federal government, known as “third parties.” With
these types of claims, Labor may require employees to pursue the third party for damages, and if
the employee fails to do so, Labor may suspend or terminate benefits. Labor will not require
employees to pursue third parties if the total compensation costs are “minor” (below $1,500).71
However, any claim that compensates for lost wages is not considered minor. Under these terms,
at least 8 of the 38 third party claims in our sample may qualify as minor.

As an alternative, the law allows Labor’s Office of the Solicitor to pursue recovery from third
parties on an employee’s behalf. In practice, the Office of the Solicitor prefers that employees
pursue third parties themselves, and offers its services as a liaison between claimants and the
OWCP district office. The Office of the Solicitor is generally unaware of third party liabilities
until the district notifies it about claims in writing. If it receives a letter from an agency or its
injured employee, it will contact the appropriate OWCP district for a referral. When an
employee recovers funds from a third party or its insurance company, the money is supposed to
offset workers’ compensation costs before any other interests. However, Labor stated that
claimants sometimes keep funds they receive from insurance companies, not disclosing their
insurance claim recovery to the employing agency.

OOSH has not overseen third party cases. While OOSH is not specifically required to pursue
third party recoveries, it is required to oversee all aspects of case management. However, OOSH
was unresponsive in all 38 cases in our sample that indicated possible third party liability, failing
to manage employees’ pursuit of these parties. OOSH did not: (1) ensure that claimants and
supervisors identified third parties, (2) ask Labor to inform claimants of their responsibility to
pursue third parties, (3) ensure that claimants pursued third party recoveries, or (4) track the
progress of third party recovery efforts. Such widespread failure to pursue such claims is
alarming and potentially costly.

Fourteen, or less than half of the 38 files, had supporting documentation, such as police or
accident reports to identify third parties and facilitate the recovery of funds. And we found only
one instance in which OOSH inquired about third party liability. However, that inquiry was in
response to a letter Labor issued to a claimant about potential third party liability. Labor copied
OOSH on its letter to the claimant and OOSH responded by requesting a copy of the claimant’s
response.

For cases handled by the contractor (18 out of the 38 in our sample), the contractor notified
Labor of third party involvement in 6 out of the 18 cases. For the remaining 12 cases, there was
no indication that the contractor had identified or pursued third party recoveries. OOSH did not

71
 U.S. Department of Labor – Office of Audit “Service Auditor’s Report on the Integrated Federal Employees’
Compensation System and Central Bill Process,” Report Number: 22-06-002-04-431, p. 39.

                                                      28

                                                      28
U.S. Department of Commerce                                                Final Report IPE-17536
Office of Inspector General                                                           March 2006

ask the contractor to make sure claimants identify and pursue third parties and that Labor is
involved in the process. The contract does not specifically address third parties and steps the
contractor must take for third party claims. Nevertheless, the contractor is responsible for
identifying third parties because it processes claim applications, including a section for third
party identification.

OOSH’s oversight influences whether Labor               Figure 11: How the Process for Pursuing
proceeds with third party claims. Labor’s                        Third Party Claims Should Work
attention to third party liability is minimal                Injured employees and supervisors
because the employing agencies bear the burden          ▪ Gather information about third parties
of identifying and tracking progress against such         and include it on claim forms.
claims, and Labor’s (OWCP’s) primary                                              ↓

                                                                   OOSH and the contractor
responsibilities are to adjudicate cases and
                                                        ▪ Inform claimants and supervisors of the need
provide benefits. But Labor strongly urges                to identify third parties.
agencies to investigate third party liability and       ▪ Review claim forms and provide
share related information with it. If Commerce            supporting information to Labor.
contacts an OWCP district about pursuing a third        ▪ Request that Labor require employees to
                                                          pursue liable parties.
party claim, district office staff told us they would
                                                                                  ↓

gladly pursue the matter. The Department can
                                                        Labor OWCP district office claims examiner
request that an OWCP district issue letters
                                                        ▪ Issues letter to claimant requiring
informing claimants about their responsibility to         him/her to pursue a third party.
pursue third parties, and district staff may try to     ▪ Issues a second notice 30 days after the first
follow up with employees to enforce action.               letter, if no response.
However, when Labor tells employees to pursue                                     ↓

                                                        Claims examiner forwards case to Labor’s
third parties and they fail to do so, it rarely
                                                        Office of the Solicitor if
terminates or suspends benefits, as permitted by        ▪ Incurred expenses exceed a monetary
law. With active oversight, Commerce may                  threshold.
request such actions when appropriate.                  ▪ The claimant has an attorney.
                                                                                  ↓

                                                                     The Office of the Solicitor
Likewise, the Office of the Solicitor does not
                                                        ▪ Monitors the progress of legal action
oversee third party recoveries because the                against third parties.
Department does not push OWCP district offices          ▪ Will request a case referral from OWCP if
to refer claims and does not personally notify the        it receives written notice about third party
Solicitor’s office of third party claims. As noted        liability from agencies, claimants, or
                                                          attorneys.
earlier, if the Department notified the Office of
                                                                                  ↓

the Solicitor, it would request a referral for action   After 2 – 5 years, claimants may not be able
from the appropriate OWCP district. Without the           to pursue third parties due to statutes of
Department’s involvement, Labor stated it will                              limitations.
not prioritize referrals or pursue any aspects of       Source: DAO 202-810 and Labor (Interviews)
third party claims.

After we brought this issue to OHRM’s attention, OOSH reported that it identified 187 third
party cases by searching the contractor’s and Labor’s AQS databases. OOSH reported that it
sent letters for all 187 cases to the appropriate Labor district offices asking for status updates and



                                                  29

                                                  29
U.S. Department of Commerce                                                          Final Report IPE-17536
Office of Inspector General                                                                     March 2006

explanations for why some cases hadn’t been referred to the Office of the Solicitor.72 We note
that only 8 of the cases OOSH identified were from our sample of 38. The remaining 30 did not
show up in its database searches, which underscores the importance of identifying third parties
on claim forms and bringing them to Labor’s attention early. If claims are not identified
correctly or otherwise brought to Labor’s attention, they may not be properly categorized and
tracked in databases.73

OOSH has not educated staff and supervisors regarding third party liability. Department
administrators and injured employees are not adequately informed about the third party aspect of
the FECA program. OOSH does not offer training or other guidance that addresses the
importance of identifying and pursing third parties. Additionally, OOSH training materials
released in December 2005, do not stress the importance of third party claims or delineate the
steps for identifying and pursuing them.

Claimants and supervisors sometimes misunderstand what creates a third party claim and how to
properly submit such a claim. We found at least four cases where third parties were involved,
but the initial claim forms did not indicate third party involvement.74 In one case, a supervisor
erroneously indicated that no third party was involved, when a third party was involved. We also
found cases that indicated third party involvement, but the claim forms did not have adequate
third-party contact information. In addition, at least one case erroneously indicated third party
involvement, when third parties did not appear to have been involved.75 Such misunderstanding
of federal law and regulations hurts both the Department and the employee.

Departmental employees, supervisors, and OOSH are responsible for gathering information
about third parties, identifying them on claim form applications, and encouraging recovery
efforts. The workers’ compensation claim forms have a section to indicate third party liability
and write in contact information for the third party. Labor is not responsible for processing the
case as a third party claim, unless this section of the form is completed (see Figure 12).




72
   The content of the letters varied based on the information provided in the databases. In two frequent inquiries, 

OOSH sought explanations for why some cases were not forwarded to the Labor Office of Solicitor and why

recoveries were not credited to the Department. 

73
   Practices vary by Labor district office and among claims examiners. Some claims examiners may notice that a 

third party is liable and process the application as a third party case. However, if the Department does not indicate 

third party involvement on the claim form, examiners are not responsible for categorizing the claim as a third party 

case. 

74
   We do not have data to confirm the total number of sample claims that did/did not identify third party liability.

75
   In a second case, a claimant was injured aboard a ship while moving deck plates. Based on information in the file, 

it was not clear whether this was caused by a third party or was simply an accident. The claim application indicated 

a third party was involved, but did not identify a third party. 


                                                         30

                                                         30
U.S. Department of Commerce                                                            Final Report IPE-17536 

Office of Inspector General                                                                       March 2006


Figure 12: Labor’s Suggested Best Practices for Third Party Cases
                                                                  DOC, OOSH, and
      Employee          ¨          Supervisor           ¨            Contractor             ¨                Labor
     Cites the facts              Marks the Box                   Provides Oversight                   Manages Claims
Indicate third party            Indicate third party             Ask Labor to inform                 Notify Labor’s Office of
involvement on                  involvement on                   claimants of their                  the Solicitor about
claim forms.                    claim forms.                     responsibility to                   claims.
                                                                 pursue third party
Provide contact                 Provide contact                                                      Monitor recovery
                                                                 cases.
information for third           information for                                                      efforts.
parties.                        third parties.                   Ask Labor for third
                                                                 party status.                       Ensure recovered
Submit witness,                 Submit witness,                                                      funds are properly
police, and accident            police, and                      Monitor recovery                    credited to
reports.                        accident reports.                efforts.                            Commerce’s charge-
                                                                 Ensure recovered                    back report.
                                                                 funds are properly
                                                                 credited to
                                                                 Commerce’s charge-
                                                                 back report.
Source: DAO 202-810 and Labor Interviews

The Department has lost and will continue to lose funds by not pursuing third party recoveries.
This is because it incurs charge-back costs for the duration of claims despite third party liability
for those expenses. Expenses include vocational rehabilitation, medical care and surgeries, and
therapy programs that can span years for individual employees. An OWCP specialist on third
party claims estimated that depending on the claim, Commerce could save thousands of dollars if
it aggressively pursued third party liability.

If employees wait too long to pursue third parties, they may lose the right to do so. Various
states have statutes of limitations that set a time limit on a person’s right to pursue legal
recourse.76 Eleven of the 38 third party claims in our sample, approximately 29 percent, are no
longer eligible for legal action because too much time has elapsed since the injury (see Table 5
below). Thirteen claims may soon join this category. With each new claim involving third
parties, the Department incurs costs that could be recovered if its claimants pursue legal remedy.




76
  Labor’s Office of the Solicitor estimated that statutes of limitations vary by state, ranging between 2 and 5 years
from the time of the injury.

                                                          31

                                                          31
    U.S. Department of Commerce                                                          Final Report IPE-17536
    Office of Inspector General                                                                     March 2006

Table 5: OIG Sample of Third Party Claims

                        38 Third Party Claims From 231 Sample Cases:1                          (16% of Sample)

        Majority of Claims Involve Census Employees:                                                   89% of Third
                                                                                                34
        (The remaining 4 claims are from NOAA.)                                                        Party Claims
                                                                                                       79% of Third
        Number of Claims Resulting from Car Accidents:                                          30
                                                                                                       Party claims
        Number of Claims that Generated Notable Expenses:                                              50% of Third
                                                                                                19
        (MRI, surgery, therapy, vocational rehabilitation)                                             Party Claims

                                           Third Party Recovery Amounts
                                                                                                     7 cases
        Total Amount of Funds Recovered from Third Parties by Claimants:2
                                                                                                  ($118,257.56)
                                                                                                  7 cases
        Additional Claims Pursued by Claimants:3
                                                                                              (Amount Unknown)

                             Is the Department Able to Pursue Its Third Party Claims?

        Claims Not Pursued With Potential For Recovery:                                                  10

        Claims that Cannot Be Pursued Because of Statute of Limitations:                                 11

1
  Labor denied 3 of the 38 claims for reasons unrelated to third party liability. Therefore, these 3 only provide information
  about identifying third parties and the beginning steps to pursuing them. One USPTO case is not factored into this table’s
  data.
2
  This figure may be larger because some claim files indicated claimants may receive additional funds in the future, but
  the files did not provide information to determine whether claimants received these funds or whether funds were credited
  to the Department.
3
  Based on our file review, some injured employees apparently pursued third parties, but there was no indication in the files
  whether they were successful or the Department recovered funds.
Source: Office of Inspector General

    RECOMMENDATIONS

           1.	 Identify third party claims and ensure OOSH, the contractor, and Labor OWCP district
               offices monitor recovery efforts.

           2.	 Educate Commerce safety specialists, administrators, supervisors, employees, and the
               contractor on the importance of adequately identifying third parties and pursuing funds
               from the time the claim is filed.

           3.	 Include responsibilities for identifying and monitoring the pursuit of third parties as
               requirements in future contracts for workers’ compensation management.




                                                             32

                                                             32
U.S. Department of Commerce                                                          Final Report IPE-17536 

Office of Inspector General                                                                     March 2006




In its response to our draft report, the Department reported that it had notified the Department of
Labor about 183 claims for workers’ compensation injuries that may have been caused by a third
party. This number differs from the 187 claims the Department originally reported to our office.
Upon our request, the Department stated it changed the number because it determined that 4 of
the 187 claims were not third party claims. In it response to our draft report, the Department also
noted that it thought Labor should take a much stronger role in pursuing third-party claims, and it
hopes that the referrals to Labor will reduce the government’s liability and result in a credit of
previously expended Commerce funds.

Census’ response indicates that the bureau believes there are factors, such as an injured worker’s
incapacity, that may make information on third parties unavailable at the time that claim forms
are first submitted. When the claimants and supervisors complete the forms, they must ensure
the third party box is marked and third party contact information is provided, where applicable.
We agree that a variety of factors can affect the completion of workers’ compensation forms.
DAO 202-810 states that supervisors and managers are responsible for “providing any additional
factual evidence to the contractor, as required by Labor in its adjudication of claims.”
Supervisors and managers must subsequently provide third party information to Labor when it
becomes known, if it was not initially indicated on the workers’ compensation forms.

In its response, Census also reports that in future FECA manuals and training given to
supervisors, it will include specific guidance on how to accurately provide third party
information.

F. OHRM Needs to Refer All Cases of Possible FECA Fraud or Misconduct to the Office of
   Inspector General

OOSH has not been referring potential fraud cases to the Office of Inspector General. Our
evaluation of 260 short-term and long-term cases resulted in 15 referrals for investigation. In
addition, we found the Department’s FECA contractor had sent 20 cases to OOSH for referral to
our office, but OOSH did not refer any of them to our office until we recently raised this matter
with OHRM managers.77

Commerce regulations do not explicitly state that OOSH, employees, and/or the contractor must
report questionable FECA claims to our office. However, employees must promptly notify the
Office of Inspector General of suspected violations of law, rules, regulations, or mismanagement,
and any information indicating gross waste of funds, abuse of authority, or a substantial and
specific danger to public health or safety.78 In addition, the contractor is required to challenge
questionable claims and refer them to Labor.79 If the contractor believed certain claims were
suspect, OOSH should have submitted them to our office. Proven FECA fraud or abuse is


77
   There is some overlap between cases referred to OIG, and the cases OIG identified for investigation during our 

review. 

78
   DAO 207-10, Inspector General Investigations, January 19, 1981.

79
   DAO 202-810, Workers’ Compensation for Federal Employees, November 24, 2004.


                                                         33

                                                         33
U.S. Department of Commerce                                             Final Report IPE-17536
Office of Inspector General                                                        March 2006

grounds for reducing or terminating benefits and possible criminal prosecution.80 For example, a
joint investigation conducted by our Office of Investigations and Labor’s OIG recently resulted
in an administrative determination that a Commerce claimant must repay $195,000 in workers’
compensation benefits, based on his failure to report income earned during the 4-year period he
was receiving benefits.

The OOSH workers’ compensation specialist believed the cases flagged by the contractor did not
need referral to either our office or to Labor. The OOSH director, on the other hand, was
unaware and upset that questionable cases were not referred to us. By failing to refer certain
cases, OOSH missed the opportunity to uncover potential fraud, bring an employee back to
work, and/or reduce compensation payouts and long-term benefits. We believe the OOSH
director should have been told about these questionable cases and been the one to decide whether
to refer them to our office and/or Labor. After we brought this matter to the attention of OHRM
managers, OOSH referred 26 cases to our Office of Investigations between November 7, 2005
and February 9, 2006. However, the OIG team reviewing the worker’s compensation program
had already submitted 10 of the 26 cases to our Office of Investigations.

RECOMMENDATION

       Direct all bureau managers, OOSH, and the contractor to refer cases of suspected FECA
       fraud, waste, and abuse to the Office of Inspector General and the Department of Labor.
       OOSH and the contractor should also carefully monitor suspected cases of FECA abuse,
       including questionable cases, such as multiple claim submissions from a single employee.



The Department agreed with our finding. In its response to our draft report, the Department
reports that since October 2005, it has reviewed and referred 23 cases of suspected fraud to our
office.




80
     20 CFR 10.17 and 18 U.S.C. § 1920.

                                                 34

                                                 34
U.S. Department of Commerce                                                     Final Report IPE-17536 

Office of Inspector General                                                                March 2006


II. 	      Deficient Bureau-Level Attention to the FECA Program Mirrors Weaknesses
           Found in OHRM

While OOSH centrally manages the Department’s workers’ compensation program,81 Commerce
regulations require bureau supervisors and managers to be involved with their own FECA cases.
But 5 out of 13 Commerce bureaus, with 89 percent of the 2005 workers’ compensation costs,
have relied on OOSH to manage their cases. The 5 bureaus believe that departmental regulations
gave OOSH total responsibility for managing cases. Second, bureaus have not adequately
monitored their charge-back reports or requested them from the Department when they are not
provided on a regular basis. Third, Census lacks a proactive strategy for handling past and future
FECA claims, particularly those involving its temporary decennial census workers. Fourth,
USPTO needs to improve oversight of its workers’ compensation cases. We found that the
bureaus’ lack of attention to their own case rolls was a serious contributing factor to OOSH’s
overall poor management of the FECA program.

A. The Bureaus Have Not Effectively Monitored Their Workers’ Compensation Cases

Commerce bureaus have taken a hands-off approach to their workers’ compensation cases
because OOSH is charged, under DAO 202-810, with managing the FECA program. The 5
bureaus are Census, NOAA, NIST, ITA, and NTIA. While the DAO does not explicitly state
that the bureaus must maintain workers’ compensation programs including systematically
reviewing cases, the DAO does assign specific responsibilities to bureau supervisors and
managers (see Figure 13).

Figure 13: Bureau Responsibilities for Workers’ Compensation Cases
                                   Supervisor and Manager Responsibilities
     1. Assist employees with work-related injuries so they receive medical attention as soon as possible.
     2. Advise employees that workers’ compensation guidance is available from the departmental
        contractor and OOSH.
     3. Complete the supervisor’s section of all forms and submit forms to the contractor in a timely
        manner.
     4. Submit Form CD-137, “Report of Accident/Incident,” to OOSH and the bureau safety office.
     5. Coordinate with the contractor and employee’s timekeeper to modify time and attendance reports
        for continuation of pay, as appropriate.
     6. Provide all relevant case information to the departmental contractor on questionable claims, and
        where appropriate, controvert continuation of pay in accordance with regulatory guidelines.
     7. Provide any factual evidence to the departmental contractor as required by Labor in its adjudication
        of claims.
     8. Maintain contact with and advise employees of the availability of light and/or limited duty.
Source:	 Commerce Department Administrative Order 202-810
Some bureau managers stated they did not pay attention to workers’ compensation cases and
costs for various reasons including: (1) they believed when the Department centralized the
program in 1994, it made OOSH responsible for managing all aspects of the program on their
behalf; (2) OOSH has not conveyed adequate information about the claims process or the

81
     See Background Section.

                                                      35
U.S. Department of Commerce                                                Final Report IPE-17536
Office of Inspector General                                                           March 2006

bureaus’ role in managing it; and (3) OOSH has only sporadically distributed Labor charge-back
bills Department-wide, so bureau personnel did not know what their FECA costs were or that
they were to be monitored, and consequently had no full-time staff dedicated to monitoring these
cases and costs.82

Bureau attention to FECA cases is essential to the Department’s success at reducing workers’
compensation costs and returning employees to work. Bureau personnel should know who from
their organization is on the rolls, and they are in the best position to identify errors in case-related
records and documentation. They also know what reemployment accommodations are possible,
if needed, when employees are ready to come off the rolls. However, as stated earlier, we found
that some bureau personnel were unaware of their FECA responsibilities and departmental
regulations or found them confusing.

Without bureau involvement and cooperation, OOSH cannot adequately monitor workers’
compensation cases and minimize costs. For example, we asked Census and NOAA to
determine whether 61 workers had returned to work or were still injured. Census and NOAA
could not find 14 of the 61 workers’ or 23 percent on their employee rolls (3 for Census and 11
for NOAA). Fourteen workers were receiving compensation payments while Census and NOAA
were unaware of their case status. Not being able to identify all of its claimants hinders a
bureau’s ability to manage its workers’ compensation costs.

RECOMMENDATIONS

       1.	 Revise DAO 202-810 to clearly define the roles and responsibilities of Commerce
           bureaus in managing their workers’ compensation cases, verifying costs, and returning
           employees to work as soon as possible.

       2.	 Improve OHRM’s coordination with bureau supervisors, human resources offices, and
           safety offices, and ensure that each bureau:
               a.	 Designates at least one individual to oversee its workers’ compensation cases and
                   coordinate closely with OOSH and the contractor to bring employees off the rolls
                   as quickly as possible, and
               b.	 Considers incorporating a performance element for minimizing workers’
                   compensation costs into the performance plans of appropriate personnel.



The Department’s response to our draft report indicates that it is revising DAO 202-810 to more
clearly define bureau roles and responsibilities for the workers’ compensation program. The
response also indicates that OHRM issued guidance on its return-to-work initiative, Human
Resources Bulletin #018 dated, November 2005, during our review (see page 25). The bulletin
identifies Commerce workers’ compensation return-to-work procedures including the OOSH
Director’s establishment of an employee assignment team after receiving notification that an
injured employee can return to work. A representative from the employee’s human resources

82
     PTO has a full-time workers’ compensation specialist.

                                                             36

                                                             36
U.S. Department of Commerce                                                    Final Report IPE-17536
Office of Inspector General                                                               March 2006

servicing office, the first-line supervisor, and a bureau/office senior management official will be
members of the team. We believe the actions called for in the bulletin, when fully implemented,
will address recommendation 2a above. However, OHRM will need to provide adequate
oversight to help ensure that each bureau understands and complies with the bulletin.

B. Neither OOSH Nor the Bureaus Routinely Determine the Accuracy of Charge-back Bills

We found that OOSH and the bureaus have not systematically verified the charge-back reports
from Labor. DAO 202-810 requires OHRM to review and reconcile workers’ compensation
charges billed by Labor. Labor’s charge-back reports, submitted quarterly and annually to
OOSH, list the claimant names and associated costs for each workers’ compensation case. These
reports are a key tool for analyzing and minimizing FECA costs.83

The charge-back reports detail the cost of FECA cases for the Department, medical and monetary
compensation totals, the number of payments, and type of claim. By not reviewing the charge-
back reports, bureaus are unable to verify claimants belong to their bureau or that claimants
receive the correct level of compensation. In addition, the charge-back reports give bureaus an
opportunity to identify all employees who are receiving benefits and verify that they are entitled
to remain on the rolls. Since some claimants may have been on the rolls for long periods of time,
the current bureau supervisors or managers may not know the claimants and should be able to
check whether they can be brought back to work or taken off the rolls. Without any incentive or
accountability for bureau supervisors to manage their claims, errors on the reports can be missed,
and claimants may remain on FECA rolls for indefinite periods of time without any verification
as to their eligibility.

OOSH personnel stated they never verified charge-back reports and only recently began to look
at them, in response to our review. OOSH informed our office that it is in the process of
verifying information on charge-back reports. On February 1, 2006, OOSH emailed a bureau
regarding a discrepancy with one claimant on the report.

OOSH also did not consistently distribute Labor charge-back reports. OOSH could not confirm
that it sent charge-back reports to bureaus prior to 2000, and since then, OOSH’s distribution has
been sporadic. Since 2000, OOSH has provided 9 of the Department’s 14 bureaus with charge-
back reports. 84 However, OOSH had provided only 4 bureaus with copies of the 2005 annual
charge-back report. Census and NOAA, the bureaus with the largest workers’ compensation
expenditures, have not received charge-back reports for over 2 years and 1 year, respectively.
Table 6 lists the charge-back reports distributed to bureaus.

Although they continued to pay FECA bills, the bureaus did not consistently request charge-back
reports from OOSH to verify information. Of the 9 Commerce bureaus receiving charge-back

83
   Department of the Interior Workers’ Compensation Program OIG Evaluation Report Number: E-IN-MOA 0008
2004, pp 7-8. Department of Veterans Affairs Audit of VA’s Workers’ Compensation Program Cost, OIG Report

Number: 8D2-G01-067, p. ii.

84
   OOSH confirmed that workers’ compensation charges for BEA and ESA are combined on one charge-back report, 

meaning the $825 ESA bill applies to both bureaus. USPTO has been a performance-based organization (PBO) 

since 2000, and receives its reports directly from Labor. 


                                                     37

                                                     37
U.S. Department of Commerce                                                  Final Report IPE-17536
Office of Inspector General                                                             March 2006

reports, only 6 took additional action after receiving the reports. Census and NOAA were among
those bureaus whose safety officers did not review the reports received.

Table 6: OOSH’s Charge-back Report Distribution by Bureau (2000-2005)
              Bureau Costs       Charge-back Reports           Bureau Actions After Receiving
 Bureau
             (7/1/04-6/30/05)    Received Since 2000                Charge-back Report
                                                          Census’ Safety and Health Office does not
 Census         $5,593,551              7/1/03-9/30/03
                                                          review reports.
                                      7/1/04-9/30/04      NOAA’s Safety and Health Division does
                                      7/1/03-6/30/04      not review reports.
 NOAA           $5,457,684
                                      7/1/02-6/30/03
                                      7/1/01-6/30/03
                                      7/1/04-6/30/05      Occupational Safety and Health Director
                                      7/1/03-6/30/04      reviews reports.
  NIST           $898,857
                                      7/1/03-9/30/03
                                      7/1/02-6/30/03
   ITA           $732,531                  None           Not Applicable
                                      7/1/04-6/30/05      Workers’ Compensation Specialist
                                    (USPTO receives       reviews reports.
 USPTO           $577,714
                                  reports directly from
                                          Labor)
                                      7/1/04-6/30/05      OOSH Safety Director reviews reports.
   OS            $365,567
                                      7/1/03-3/31/04
 MBDA            $237,735                  None           Not Applicable
                                      7/1/04-6/30/05      Safety Manager reviews reports.
                                      7/1/02-6/30/03
  NTIA           $179,942
                                      7/1/01-6/30/02
                                      7/1/00-6/30/01
                                      7/1/04-6/30/05      Safety Manager began reviewing reports
  OIG            $172,405
                                      7/1/01-6/30/02      in May 2005.
                                      7/1/03-6/30/04      Reports reviewed against employees on
   BIS           $115,941
                                      7/1/02-6/30/03      rolls.
  EDA            $111,104                  None           Not Applicable
                                     7/1/04-12/31/04      Budget analyst reviews reports.
  NTIS           $49,595
                                     7/1/04-09/30/04
  ESA              $825                    None           Not Applicable
  BEA         Not Applicable        7/1/03-12/31/03       Not Applicable
Source: OOSH and Departmental Bureaus

Our review of the charge-back reports identified case information, such as the following, which
the bureaus or OOSH could have acted upon if they analyzed the reports themselves:

    	 Two individuals were listed on the wrong Commerce bureau reports (one from NOAA
       and one from Census) from April 1, 2005, until November 8, 2005. After we notified
       OOSH of the mistake, the office contacted Labor to correct the errors. Since no charge-
       backs had been sent to NOAA for over a year, and to Census in over 2 years, the bureaus

                                                    38

                                                    38
U.S. Department of Commerce                                                   Final Report IPE-17536
Office of Inspector General                                                              March 2006

        would not have caught the errors. OOSH stated that it has no internal controls to identify
        such errors billed to the 2 agencies. This indicates that the wrong agency may have been
        overcharged for the period from April 1, 2005 to November 8, 2005.

     	 An individual in the Office of Inspector General had been on workers’ compensation for
        many years without current management’s knowledge. As a result of reviewing our
        charge-back report, we identified this individual and current management was able to
        successfully act on this claim and reduce FECA costs.

The failure to analyze charge-back reports is not a new problem. Our 1992 review noted the
following:

        Some specialists were not familiar with the charge-back list at all. Many

        agencies were not aware that they have a charge-back code and were unable to 

        locate their claims on the charge-back list. Some agencies did not understand 

        the information provided by the charge-back listing. Others reviewed the list 

                                                     85

        but had no method or routine for verifying.

We recommended that workers’ compensation specialists receive instructions on reviewing and
verifying the accuracy of the chargeback reports. Thirteen years later, in our current review, we
noted the same problem, and our 1992 recommendation had not been implemented.

OOSH believed that unless requested by the bureau, it did not have to distribute the charge-back
reports, and it has never been the Department’s practice to do so. DAO 202-810 does not
explicitly require bureaus to review charge-back reports. Bureaus also believed they were not
required to review the reports, and one bureau manager told us he did not know the report
existed. In addition, the bureaus also had no incentive to review the reports because the bureau
finance offices pay the workers’ compensation bills, and bureau employee appraisals contain no
performance measures to encourage supervisors to manage workers’ compensation costs.
However, OOSH is now establishing contacts in each bureau budget office and plans to send the
quarterly and annual charge-backs to them.

RECOMMENDATION

        Distribute quarterly and annual charge-back reports regularly to all bureaus and instruct
        the bureaus to carefully review and verify the accuracy of the charge-back costs and
        create incentives for them to do so. For example, the Department could use data from the
        charge-back reports to generate a listing of claimants and costs by line office to increase
        their accountability for justifying those costs.




85
 Office of Inspector General, Evaluation of Department of Commerce Management of the Federal Employees’
Compensation Act, Report Number IRM-4589, 9/24/92, p. 17.

                                                    39

                                                    39
U.S. Department of Commerce                                             Final Report IPE-17536 

Office of Inspector General                                                        March 2006




  The Department’s response did not specifically address this recommendation, although it did
  state that the Labor Department should take a stronger role in discontinuing payments to
  claimants who have died and identifying double payments to claimants.

  In its response to our draft report, Census stated it is willing to evaluate ways to increase line
  office accountability for FECA costs. However, it believes it needs charge-back data in an
  electronic, sortable format from Labor. Currently, Labor provides the charge-back reports in
  paper form. However, this should not preclude Census from reviewing its charge-back reports
  for accuracy and completeness.

C. OHRM and Census Need a Plan for Moving Temporary Workers from Past Decennials
Off FECA Rolls and for Proactively Managing Future Decennial Claims

Our review of Census Bureau FECA rolls identified 44 active claims from the 1990 decennial
and 183 from the 2000 decennial. It is unnecessary and costly when so many temporary staff
hired to conduct the 1990 and 2000 decennial censuses are injured on the job and remain on the
rolls to this day. Census stated that its return-to-work obligation to temporary workers on FECA
rolls is only to find them suitable employment for 90 days, but Census did not keep a list of any
of its employees who could potentially return to work. Claimants who take such positions need
only work for 90 days and the Department’s FECA obligation ends. Claimants who decline a
suitable offer of temporary employment lose benefits immediately, with no further expense
incurred by the Department. Instead, Census continues to pay FECA benefits to recovered
individuals. To avoid repeating this mistake with employees injured during the 2010 decennial,
or tests in preparation for that count, Census and OHRM need to develop a proactive plan for
reemploying claimants as soon as they are able to work.

Short-term workers become long-term claimants. For the 1990 and 2000 decennials, Census
hired approximately 500,000 temporary enumerators and other staff. The huge influx of workers
created more opportunities for injuries and higher workers’ compensation costs. Census data
collection may put temporary employees in situations that hold risk of injury. Temporary
employees often work at night and may have to drive or walk in unsafe and high crime areas.
Figure 14 shows a sharp spike in costs during the 2000 decennial time frame, and much of this
increase occurred when the Department employed Census’ temporary contingent. Commerce
paid over $21 million in workers’ compensation benefits between July 1, 2000, and June 30,
2001, which coincides with the tenure of most temporary Census workers. Costs subsequently
decreased and have remained relatively stable, as staffing levels at the bureau returned to normal.




                                                40

                                                40
U.S. Department of Commerce                                                             Final Report IPE-17536 

Office of Inspector General                                                                        March 2006


Figure 14: Commerce Workers’ Compensation Costs Rose During the 2000 Decennial Census

     $25,000,000



     $20,000,000



     $15,000,000



     $10,000,000



      $5,000,000



           $-
           7/1/98-6/30/99 7/1/99-6/30/00 7/1/00-6/30/01 7/1/01-6/30/02 7/1/02-6/30/03 7/1/03-6/30/04 7/1/04-6/30/05
                                                 Labor Charge-back Periods


Source: OOSH

Census stated that it struggles with following up on decennial cases because of resources and the
difficulty of bringing people back to work because of the short-term nature of decennial jobs.
Table 7 lists claim-related information for four Census enumerators injured on the job during the
last two decennials, and shows problems in Census’ and OOSH’s management of these cases.

Table 7: Data on Four Census Workers’ Compensation Claims
           Current                   Medical         Monetary                                   Estimated
                       Year of
Claimant Claimant                 Compensation Compensation                                   Compensation to
                       Injury                                                                     Date86
              Age                (7/1/04-6/30/05) (7/1/04-6/30/05)
    1         65        1990       $            0 $         8,703                               $        130,554
    2         59        1991       $            0 $        22,365                               $        313,115
      3            56            2000            $           1,264 $             13,563         $         74,138
      4            45            2000            $           2,946 $             13,125         $         80,358
                                                                               Total            $        598,165
Source: Labor Charge-back Period 7/1/04-6/30/05

     	 Claimant 1 sustained multiple injuries in 1990. Subsequent surgeries, recovery, and
        completion of the Census left this claimant without a return to work offer. In 1998,
        OHRM believed the claimant’s medical documentation did not support the claimant
        remaining on workers’ compensation. However, she has remained on the rolls collecting
        over $130,554 in compensation in addition to payments for medical bills.
86
  Calculated from Labor chargeback report dated 7/1/04-6/30/05. Estimated compensation includes monetary
compensation multiplied by the number of years since the injury plus medical expenses from the 7/1/04-6/30/05
report. Actual compensation would be higher if medical compensation was known for the years since the injury.

                                                          41

                                                          41
U.S. Department of Commerce                                                Final Report IPE-17536
Office of Inspector General                                                           March 2006

       	 Claimant 2 sustained a minor injury in 1991, and some 15 years later, remains on the
          Department’s rolls at a cost of more than $313,115 to date. Claimants 1 and 2 received
          no recent medical compensation, indicating they no longer have medical expenses related
          to their Census injuries and may be able to return to work.

       	 Claimant 3 was injured in a fall while on the job in 2000. She did not recover before the
          term of duty expired. In the 6 years since this incident, this claimant has received
          $74,138 in compensation.

       	 Claimant 4 was injured while conducting interviews in 2000. Her term of duty also
          expired before she could return to work. She has remained on the rolls for over 5 years
          and received $80,358 in compensation.

Census has known it could offer temporary assignments to previously injured workers.
However, Census stated that it faces problems reemploying workers. The vast majority of
decennial jobs last less than 90 days and occur within a specific calendar year window.
Typically, most, if not all, decennial positions have ceased to exist by the time a worker is
available to return to work.

As Table 8 below shows, the 1990 and 2000 decennial census injuries accounted for 49.4 percent
of the bureau’s workers’ compensation costs on the last Labor chargeback report. These workers
are unique in the limited amount of time they spend as Department employees. However, their
length of hire should not preclude them from returning to work in short-term positions.
Commerce data shows that most injured employees recover quickly and return to work on their
own. Census decennial workers should be no different, despite their temporary status. However,
Table 8 shows that these temporary employees are, in fact, different, and their cases are far
costlier than other Census claims. Costs will only increase with the passage of time and medical
care compensation increases as claimants’ age. Instead of keeping recovered temporary
employees on the FECA rolls indefinitely, Census should have tried to find other temporary
positions for them.

Table 8: Census Workers’ Compensation Costs87
      Type         Number of       Total Cost                 Percent of     Average
                    Claims                                    Total Cost     Case Cost
 1990 Decennial        44         $   661,481                   11.83         $15,034
     Census
 2000 Decennial       183         $ 2,103,740                   37.61          $11,496
     Census
    Decennial         227         $ 2,765,221                   49.44          $12,182
    Subtotals
All Other Census      426         $ 2,828,330                   50.56          $ 6,639
     Claims
     Totals           653         $ 5,593,551                   100.00         $ 8,566
Source: Labor Charge-back Period 7/1/04-6/30/05

87
     From Labor Charge-back Period 7/1/04-6/30/05.

                                                     42
U.S. Department of Commerce                                                                Final Report IPE-17536
Office of Inspector General                                                                           March 2006

Census is proactive in trying to prevent or minimize new FECA claims and costs. Census gives
new supervisors detailed training handbooks on workers’ compensation procedures, as well as
tips on containing these costs.88 Its regional offices issue memos advising enumerators to be
mindful of their safety while on the job, hang safety posters in field offices that feature tips on
preventing slips and falls, put safety reminders in monthly newsletters to field representatives,
and equip their laptops with on-screen safety reminders. Earning and leave statements for
temporary workers even contain messages on avoiding injury.89

Despite such preventive efforts, injuries occur among temporary employees. Moving employees
off compensation rolls is made more difficult because terms of duty often expire before workers
have been cleared for return to work. Local offices close, leaving Census often unable to offer
employment, and injured employees become long-term cases. OWCP personnel stated that
Census could offer jobs to employees within 1 hour of their original location. However, Census
stated that even with 12 regional offices, it would be difficult to find 227 jobs for the workers
injured during the 1990 and 2000 decennials. Census emphasized that most regional offices
mainly have full-time employees and few temporary jobs.

Census has the opportunity to move many of these workers off the rolls by hiring them for the 2010 decennial and related
operations leading up to it. Some of the injured decennial employees worked in Census field offices that are only open during
each decennial. A district director for Labor’s OWCP suggested that Census modify job descriptions
for these positions to accommodate the injured employee’s medical limitations.

RECOMMENDATIONS

     1.	 Review all Census FECA cases in conjunction with OOSH, and identify those employees
         able to return to work, whether in a full-time or temporary capacity. Take necessary
         actions to bring those employees back to work as soon as possible.

     2.	 Develop a comprehensive FECA program for the 2010 decennial, that includes:
            a.	 Guidance for supervisors/managers on how to handle FECA claims immediately
                upon initiation through case management;
            b.	 A return to work strategy, complete with modified temporary positions to quickly
                bring injured enumerators or others back to work if they are injured during the
                2010 decennial; and
            c.	 Identification of current claimants who could be offered a job in the 2010
                decennial preparations and/or operations and brought back to work.




88
   “An Overview of Office of Workers’ Compensation Programs (OWCP): Supervisory Responsibilities,” 

presentation provided by U. S. Bureau of the Census, Safety Office, 10/26/05.

89
   Commerce Safety Council Presentation by Safety and Health Manager, Census, 1/27/05.


                                                             43

                                                             43
U.S. Department of Commerce                                            Final Report IPE-17536 

Office of Inspector General                                                       March 2006




In its response to our draft report, the Department indicated that it is complex to develop a
return-to-work strategy for Census enumerators, since Labor regulations mandate a 90-day
minimum job offer and Census enumerator positions are for 45 days. The Department stated it
“will continue to work with DOL and the Bureau of the Census to arrive at a solution,
recognizing that a legislative or regulatory change by DOL may be necessary.” While this
discussion takes place, we believe the Department should determine if reemployment
opportunities for Census enumerators in other Commerce bureaus are available.

In its response to our draft report, Census agreed with our 2 recommendations that were
specifically addressed to it, but strongly disagreed with 2 issues in our report. The bureau also
provided general and specific comments on the report and recommendations addressed to the
Department (see Appendix D for Census’ full response). We made changes to the report, where
necessary, to reflect some of Census’ comments.

Census’ comments also included the following points.

      It strongly disagreed with 2 themes in our report.

       1.	 Our report states that while OHRM and OOSH centrally manage the Department’s
           workers’ compensation cases, Commerce regulations require bureau supervisors and
           managers to be involved in their FECA cases. Census believes that bureaus have a
           minimal role in workers’ compensation case management, because the Department
           centralized its FECA program in 1994 and gave OHRM and OOSH responsibility
           for FECA program management and operations. Census states that, “The
           Department’s 1994 assimilation of the bureaus’ workers’ compensation FTEs limits
           our ability to absorb additional workers’ compensation duties without additional
           resources.” Census also maintains that DAO 202-810 does not provide departmental
           bureaus with responsibility for managing workers’ compensation cases “beyond the
           prompt, accurate reporting of injuries and the prompt response to Departmental
           requests for assistance.” While our report states that the Department’s FECA
           program was centralized in 1994, we also point out that Commerce regulations (1)
           require bureau supervisors and managers to provide oversight for their own FECA
           cases and (2) assign specific responsibilities to them. In addition to the examples the
           bureau cites, DAO 202-810 states that supervisors and managers are responsible for
           (1) providing all relevant case information to [the departmental contractor] on
           questionable claims, and where appropriate, controverting continuation of pay in
           accordance with regulatory guidelines; (2) providing any additional factual evidence
           to the departmental contractor, as required by Labor in its adjudication of claims;
           and (3) maintaining contact with, and advising the employee of the availability of
           light and/or limited duty. We believe these 3 tasks indicate bureau responsibility for
           developing and maintaining proactive involvement with their workers’ compensation
           cases for the duration of the claim. Therefore, we disagree with Census’ premise
           that departmental bureaus take a reactive approach to managing its workers’
           compensation cases.

                                               44

                                               44
U.S. Department of Commerce                                           Final Report IPE-17536 

Office of Inspector General                                                      March 2006



      2.	 Census believes our report underestimates the heavy financial costs the bureau
          sustains from errors, inefficiencies, and inflexibility of Labor’s OWCP. We
          recognize that Census has concerns regarding Labor’s administration of the FECA
          program. However, the focus of our review was on Commerce’s management of its
          workers’ compensation program and whether Commerce: (1) aggressively
          minimizes FECA costs by bringing work-capable claimants back to work as soon as
          possible, (2) verifies FECA charge-back costs and ensures they are reasonable, (3)
          adequately oversees the workers’ compensation contractor, and (4) effectively
          coordinates the Department’s safety program with the workers’ compensation
          program to identify and modify workplace conditions that contribute to costly
          injuries.

   	 Census also took exception with the statement in our draft report that Labor’s primary
      FECA responsibility is to provide benefits and not to minimize agency costs. It believes
      the President’s 2004 Safety, Health, and Return-to-Employment (SHARE) Initiative
      places primary responsibility on Labor to take the lead in improving workplace safety
      and health and reducing the costs of injury to workers and taxpayers. SHARE is a
      collaborative effort between Labor and other federal agencies for fiscal years 2004 to
      2006. SHARE’s four main goals are to: (1) reduce total injury and illness case rates by at
      least 3 percent annually, (2) reduce lost time due to injury and illness case rates by at
      least 3 percent annually, (3) increase timely filing of claims by at least 5 percent
      annually, and (4) reduce lost production days due to injury and illness by at least 1
      percent annually. As the lead participant, Labor is responsible for tracking each federal
      agency’s performance and comparing the results to fiscal year 2003 baseline workers’
      compensation data. However, federal agencies are responsible for lowering workplace
      injury and illness case rates, lowering lost-time injury and illness case rates, providing
      timely reporting of injuries and illnesses, and reducing lost days resulting from work
      injuries and illnesses. Labor reports indicate that Commerce has met or surpassed 3 of
      the 4 SHARE goals, but the Department’s lost production days continue to rise annually
      and have never met the SHARE target.

   	 Census believed that waiting 4 more years until the 2010 decennial to reemploy the 227
      claimants from the 1990 and 2000 decennials would not be cost effective. We agree.
      Census states that it would be more cost efficient for Labor to place the 227 employees
      who cannot be rehired by the bureau in the public or private sectors. However, Census
      believes Labor has not adequately addressed the re-employment of decennial workers’
      compensation claimants, and it notes that Census was unsuccessful in its efforts to
      convince Labor to increase its emphasis on private sector placement. Census stated
      Labor’s criteria for re-employment of decennial claimants is too restrictive. It thought
      that perhaps the Department could initiate a “higher-level dialog” with Labor to better
      resolve these issues and lead to improved service to claimants. We agree that more active
      departmental engagement with Labor may be helpful, but we also note that Census
      should not be solely dependent on Labor to bring its 227 claimants from the 1990 and
      2000 decennials off of the long-term rolls. While Labor plays a key role in returning
      employees to work, we believe Census should engage in a collaborative effort with the

                                              45

                                              45
U.S. Department of Commerce                                                        Final Report IPE-17536
Office of Inspector General                                                                   March 2006

           Department and Labor to develop a proactive return-to-work program that is continuous
           throughout the decade for decennial employees. As noted previously, the Department
           stated in its response to the draft report, that it will continue to work with Labor and the
           Census Bureau to help bring temporary decennial Census employees back to work.

D. USPTO’s Independent Administration of its FECA Program Has Problems

USPTO became a performance-based organization in March 2000. It has been responsible for
independently processing and managing workers’ compensation claims for its employees since
October 1, 2000. One workers’ compensation specialist in the Office of Human Resources is the
primary person handling this responsibility. According to its annual charge-back report,90 the
bureau has 65 workers’ compensation claims. Based on our review of 29 cases, the bureau
processes most claims well within the 10 days required by law.91 USPTO employees typically
return to work within 2 weeks. USPTO does not have a written policy for its FECA program,
nor does it provide adequate performance plans for the staff handling FECA cases and claims.
As a result, we found some administrative and program weaknesses similar to those identified
for the rest of the Department.

Case management is inconsistent.

Case file oversight. USPTO independently administers its FECA program and should maintain
complete FECA case files, closely monitor claimants, and regularly document their status, but it
does not do so consistently. For most short-term cases in our sample, USPTO’s staff frequently
corresponded with claimants, supervisors, and Labor. However, USPTO did not have files for 3
of our 29 sample cases and one file contained no activity for a 19-month period. In addition,
long-term case files had minimal evidence of USPTO involvement. The agency’s workers’
compensation specialist reported that she does not review long-term cases or contact long-term
claimants and their doctors. She believes that long-term case management is Labor’s
responsibility and has never reviewed files at Labor. This limited approach hinders USPTO’s
ability to minimize costs and verify that employees who receive compensation remain eligible
for benefits.

Verification of charge-back reports. The USPTO workers’ compensation specialist told us
that she skims all charge-back reports and has not found any inaccuracies. During our file
review, we found that Labor had notified USPTO in 2002 that it discovered a claimant had
received dual payments and the claimant owed $14,000 to the government. This example
underscores the need for USPTO to carefully review charge-back reports. Since we inquired
about the status of that repayment, the workers’ compensation specialist contacted Labor’s
claims examiner for an update. Our office contacted Labor and confirmed that as of February
14, 2006, Labor had not yet issued a letter asking the claimant for repayment.

Returning employees to work. USPTO does not have a written return-to-work policy, although
its workers’ compensation specialist emphasized that senior level management is very aggressive

90
     Annual USPTO charge-back report for the period between July 1, 2004 and June 30, 2005.
91
     20 CFR 10.110.

                                                        46

                                                        46
U.S. Department of Commerce                                            Final Report IPE-17536
Office of Inspector General                                                       March 2006

in returning employees to work. According to the specialist, most supervisors understand that
they must assist employees in returning to work. A supervisory human resources specialist also
stated that supervisors have support from a human resources specialist and the USPTO Office of
Civil Rights to meet employees’ work needs and limitations. Based on our review, most USPTO
employees hold sedentary positions and experience minor injuries that occur in an office
environment, such as sprains, slips, and falls. These types of injuries permit employees to return
to work on their own, often within days of their injuries. In our sample of 29 cases, at least 16
claimants returned to work. However, we noted the following problems in our sample cases that
delayed the return of work capable claimants:

   	 A claimant received two medical opinions in 2002 and 2003 that cleared her for work,
      but USPTO’s case file did not document any return-to-work efforts. In May 2003, Labor
      notified USPTO that it would schedule a third medical exam, but the file did not indicate
      whether this exam occurred or any subsequent activity to bring the claimant back on the
      job. We requested an update on this case from USPTO but its response is still pending.

   	 A claimant receiving benefits since 1992 was ruled medically ready for light duty in
      March 2003, but the file showed no effort by USPTO to find a suitable position for the
      employee or gather subsequent medical information. The claimant received $13,923.33
      in benefits on a recent annual charge-back report and USPTO’s workers’ compensation
      specialist confirmed that there has been no USPTO activity on this claim since it acquired
      FECA cases from the Department’s OHRM in 2000.

   	 USPTO offered a claimant a job in 1986 but the claimant did not return to work and
      remains on the rolls. The case file contains no information as to why the claimant did not
      take the job or what his current medical condition is. In response to our inquiry about
      this specific case, the USPTO workers’ compensation specialist explained that limited
      training and additional responsibilities have hindered her success with taking aggressive
      measures on claims.

Manual tracking process. Like the Department, USPTO does not have a computerized system
for managing cases. It works exclusively with paper files and manual follow-up procedures, or
relies on Labor’s Agency Query System. Labor’s AQS is a valuable source of information on
case status and compensation history. But USPTO cannot use AQS to closely monitor its
workers’ compensation cases because it does not capture all case correspondence including
current medical reports. It also does not alert USPTO when forms and medical status updates are
due. When we asked about specific claims, the workers’ compensation specialist had to contact
supervisors and sometimes the claimants themselves to gather information. A computerized
system would help workers’ compensation staff quickly access case information and track when
updates with claimants are necessary. We believe USPTO, like the Department, could benefit
from a computerized system for managing workers’ compensation cases.

Third party claims. In one case, USPTO did not inform the claimant that she should pursue a
third party involved in her injury and the claimant did not do so. The claim application form



                                               47

                                               47
U.S. Department of Commerce                                                           Final Report IPE-17536
Office of Inspector General                                                                      March 2006

clearly identified the responsible third party,92 but Labor did not process the claim as a third party
matter and USPTO paid the full cost of the claim. The workers’ compensation staff did not seek
clarification from Labor on whether it made a decision regarding the third party issue or simply
overlooked it.

A written FECA policy, guidance, and training for supervisors are needed. USPTO does not
have a written policy for its FECA program, but the Office of Human Resources is developing an
Agency Administrative Order to outline FECA responsibilities. USPTO provides general staff
guidance on workers’ compensation through an intranet site with a brief explanation of the types
of injuries covered by FECA, a short list of actions that employees and supervisors need to take
to treat injuries and submit a claim application, and contact information for USPTO health units
and the Office of Human Resources. The site is not comprehensive. Written guidance is needed
that outlines employee and supervisor responsibilities throughout the FECA process, and policies
and procedures for returning employees to work, verifying or validating costs, addressing third
party liability, and detecting and reporting suspected FECA fraud and abuse. USPTO told us
that it is updating the workers’ compensation information available on its intranet site. It should
ensure that the site and/or its written FECA guidance is comprehensive.

In addition, USPTO does not provide workers’ compensation training for supervisors. Until 2
years ago, USPTO included workers’ compensation responsibilities in its new supervisory
training program. A bureau official told us that she did not know why the training stopped and
acknowledged the need to train supervisors on their FECA responsibilities. USPTO told us that
it would incorporate this training in a program currently under development. It will be a new
supervisor certificate program that is scheduled to start in March 2006. The new program, and
supplementary training for existing supervisors, needs to include comprehensive FECA training
for supervisors who handle workers’ compensation responsibilities.

In the meantime, USPTO employees and supervisors approach the workers’ compensation
program without complete information and guidance, which complicates employees’ efforts to
receive benefits and supervisors’ efforts to bring staff back to work. For example, a supervisor
waited 2 weeks before forwarding an employee’s claim application and never sent other key
documents supporting the claim, thus delaying initiation of benefits. In another case, a
supervisor did not recognize an employee’s injury as qualifying for workers’ compensation and
erroneously challenged the claim but was overridden by Labor.

Reporting suspected FECA fraud. USPTO does not have written policies and procedures for
reporting suspected FECA fraud. The supervisory human resources specialist reported the
workers’ compensation specialist reviews claim applications and reports suspicious claims to
Labor. However, USPTO should establish guidelines that require all employees and supervisors
to report suspected FECA fraud or abuse to OIG and Labor. USPTO has made no such referrals
to OIG since 2000, but has questioned Labor about two claims.




92
  The claimant suffered injuries after stepping off an elevator that was not level with the floor. The property owner
of the building was listed as the third party on the claim application.

                                                         48

                                                         48
U.S. Department of Commerce                                             Final Report IPE-17536
Office of Inspector General                                                        March 2006

Workers' compensation specialist needs a detailed performance plan. The workers’
compensation specialist receives some oversight and support from her supervisor, but the
specialist’s performance plan does not address her workers' compensation duties. The supervisor
stated that she uses face-to-face contact, telephone calls, and emails to supervise the workers'
compensation specialist. She also stated that she and previous USPTO supervisors have
occasionally discussed cases and pending FECA issues with the specialist. But this usually
happened after managers inquired about employees and their return-to-work status. More
importantly, the supervisor stated that she evaluated the specialist twice a year based on a generic
performance plan that does not include specific workers' compensation duties. This makes it
difficult to evaluate the employee’s progress on, and hold her accountable for the performance
of, specific workers' compensation tasks.

At the time of this report, USPTO was restructuring the workers' compensation staff and
supervision. It should ensure that performance plans for staff members include workers’
compensation duties and supervisors should evaluate the performance of staff in this area, as
applicable.

RECOMMENDATIONS FOR USPTO

  1. 	 Actively manage USPTO’s short-term and long-term FECA cases to include:
          a.	 Maintaining well-documented case files,
          b.	 Regularly communicating with all participants in the FECA process,
          c.	 Reviewing files at Labor district offices,
          d.	 Reviewing all existing long-term cases as soon as possible,
          e.	 Periodically evaluating the status of each case and physical condition of each
              claimant for possible return to work,
          f.	 Periodically reviewing Labor’s Agency Query System and charge-back reports to
              identify duplicate payments and any other overpayments, and
          g.	 Periodically matching claimant names to Social Security records to identify
              deceased claimants.

  2. 	 Establish a return-to-work program and develop procedures to:
          a.	 Identify specific responsibilities for the employee, supervisor, and USPTO
               workers’ compensation staff,
          b. 	 Give supervisors guidance for developing limited- and light-duty positions, and
          c.	 Incorporate creative approaches, such as telework or light-duty work pools with
               the Department, when USPTO cannot make accommodations.

  3. 	 Consider implementing an automated system for managing FECA cases.

  4. 	 Pursue cost-recovery opportunities by more carefully identifying and pursuing third party
       liability.

  5.	 Issue a USPTO administrative order and provide current, online guidance to:
          a.	 Clearly define the FECA roles and responsibilities of USPTO supervisors,
              employees, and workers’ compensation and human resources personnel and

                                                49

                                                49
U.S. Department of Commerce                                            Final Report IPE-17536 

Office of Inspector General                                                       March 2006


           b.	 Provide pertinent information on FECA laws, regulations, and procedures,
               coordination with the Department of Labor, returning employees to work,
               verifying and validating charge-back costs, identifying and pursuing third party
               liability, and detecting and reporting suspected FECA fraud and abuse.

  6. 	 Develop and provide FECA training to all appropriate USPTO personnel.

  7. 	 Ensure that performance plans for appropriate staff include workers’ compensation
       responsibilities and supervisors use the plans to oversee the performance of the workers’
       compensation staff.



In its response to our draft report, USPTO agreed with our findings and concurred with our 7
recommendations directed to it. Specifically, USPTO’s response outlines actions it has taken or
plans to take to address our recommendations within the next 7 months. USPTO also noted that
it (1) reduced the number of open cases listed on its annual charge-back by nearly 28 percent, (2)
initiated efforts to recover an overpayment in benefits, (3) acquired access to Labor’s AQS
system, (4) created a spreadsheet to track all claimants, and (5) planned to perform monthly
status checks on claimants. We commend USPTO’s vigorous efforts to improve management of
its workers’ compensation program and would like to get more information on USPTO’s
progress in the hope that some best practices could be identified and shared with the Department
and other Commerce bureaus.




                                               50

                                               50
U.S. Department of Commerce                                                             Final Report IPE-17536
Office of Inspector General                                                                        March 2006

III.       The Workers’ Compensation Contractor Has a Record of Strong Performance

Since October 2002, the contractor has managed all short-term workers’ compensation cases. In
April 2004, the contract was amended to include management of 74 to 200 long-term cases.
Prior to October 2005, OOSH’s workers’ compensation specialist, in her role as the contracting
officer’s representative (COR), had never visited the contractor to evaluate its performance. In
addition, the Department could not produce copies of any performance evaluations conducted
throughout the 3 years of the contract’s existence. Failure to monitor contractor performance
opens the door for waste, fraud, and abuse of federal funds. While our review determined that
the contractor has met most of its requirements (see Table 9), it is imperative that Commerce
closely oversees this contract to ensure the FECA program is managed efficiently and cost-
effectively. In addition, OHRM needs to address several issues concerning the terms of the
workers’ compensation contract.

A. The Contractor Performed Most of Its Responsibilities Well

Based on a limited review of the contractor’s files and interviews with company officials, the
contractor met 10 of 11 contract deliverables (Table 9).93 It has instituted sound operating
procedures and has capable, well-trained staff handling FECA claims on Commerce’s behalf.
The contractor believes it has saved the Department more than $15 million over the last 3 years
by helping to remove claimants from workers’ compensation rolls.94

Operating Procedures. The contractor has instituted a series of procedures that enable its FECA
specialists to fulfill contract terms. Within 24 to 48 hours of receiving a claim form, specialists
must establish three-point contact with the claimant, physician, and employer. Specialists must
also make diary entries in claimant case files every 60 to 90 days, summarizing all actions taken
by the contractor and related outcomes (e.g., contact and correspondence with the supervisor,
claimant, physician, and Labor). For the long-term cases, specialists write status reports every
120 days, recommending Commerce action, and submit the reports to OOSH’s workers’
compensation specialist. The contractor’s claims manager conducts random case reviews weekly
to ensure that specialists are following procedures. Specialists are rated on the number of cases
they review each week, diary entries made, and three-point contacts initiated.

Training and Guidance. The specialists felt they were adequately trained and equipped to
perform their tasks. Although the contractor did not offer formal training sessions to its own
staff, each specialist has a FECA rules and regulations handbook and a FECA Question and
Answer pamphlet. The specialists stated that when they encounter difficulty, they consult the
senior specialists and claims manager who have extensive experience with FECA. The
specialists use form letters to contact medical providers, Labor, and the claimant as needed.
They share their work experiences and notify each other when Labor district offices adjust their
operating procedures. The contractor hosts periodic working lunch sessions to update specialists
on FECA changes and other important program information.


93
     The contractor did not meet expectations in 1 area, and we did not review 1 contract deliverable.
94
     OIG did not verify the contractor figures.

                                                            51

                                                            51
   U.S. Department of Commerce                                                       Final Report IPE-17536 

   Office of Inspector General                                                                  March 2006


 Table 9: Evaluation of Contractor’s Responsibilities

                                               Did Contractor
                Deliverable                                                         OIG Observations
                                                  Deliver?

   1. Process all incoming claims and                           Injured employees and/or supervisors send the contractor
      maintain a record of all claims and                       claim forms and the contractor submits the forms to Labor.
                                                    Yes
      claims-related transactions                               The contractor keeps copies of all claim information in
                                                                paper and electronic files.
   2. Provide assistance to employees and                       Contractor staff told us they are required to establish three-
      supervisors                                               point contact with employee, supervisor, and physician and
                                                    Yes         are rated accordingly on their performance appraisal. Our
                                                                review of the case files confirmed this.
   3. Authorize continuation of pay (COP)                       Contractor staff reported performing this task. Our review
      benefits                                      Yes         of Labor files confirmed this.

   4. Assist in payment of wage loss                            Contractor staff stated they performed this task. Our
      claims (including leave buy-back              Yes         review of Labor files confirmed this.
      claims)
   5. Resolve all outstanding claims issues                     Contractor staff provide diary entries every 60 to 90 days to
                                                                record case activity. These diary entries list actions
                                                    Yes         specialists take to resolve claims issues. We reviewed
                                                                copies of diary entries for our sample cases. (Contractor
                                                                continuously works to resolve claims issues.)
  6.   Maintain complete case file records                      During our site visit, the contractor retrieved requested case
       of claims activity from submission of                    files and provided us with copies of case notes and status
       claim form to claim resolution               Yes         reports from its database.


   7. Provide supervisory training                              The contractor attended 2 training sessions where it
                                                                described its role and gave out information packets on what
                                                    No          to do in case of injury. However, it did not provide
                                                                comprehensive training on supervisors’ responsibilities.
   8. Develop and provide materials                             We did not review this deliverable because Labor statistics
      needed to improve timely submission       Not reviewed    indicated that Commerce, including the contractor, has
      of claims                                                 submitted claims in a timely manner.
   9. Provide a single point of contact,                        Both OOSH and the contractor stated the contractor’s
      such as an account manager, to be the         Yes         claims manager interacts regularly with OOSH’s workers’
      primary interface with the agency                         compensation specialists.

  10. Provide COR with timely reports on                        Contractor sends status reports on each long-term case to
      claims and COP activity                                   OOSH workers’ compensation specialist at least every 120
                                                    Yes         days. Contractor updates COR on short-term claims and
                                                                COP activity when necessary.
  11. Provide monthly status reports to                         COR accesses the contractor’s database to obtain the
      include, at a minimum, the number of                      information required for the monthly reports.
      claims received, the number of                Yes
      claims in-process, the number of
      claims resolved, etc.
Source: 2002 Contract and Office of Inspector General




                                                          52
 U.S. Department of Commerce                                                           Final Report IPE-17536 

 Office of Inspector General                                                                      March 2006


 Estimated Cost Savings. The contractor believes its aggressive case management has saved
 Commerce more than $15 million by helping Labor and the Department to remove short-term
 and long-term claimants from the FECA rolls.

Table 10: Contractor’s Estimated Savings By Removing Commerce Claimants from FECA Rolls95
                                    Claims          Compensation            Lifetime Cost           Total Cost
          Contract Type
                                   Removed         Saved in 1st Year         Avoidance              Avoidance
       2002 Original Contract           9                  $    217,376       $   9,479,019       $     9,696,395
         2004 Amendment
      (Claims from 10/1/04 –            8                  $    190,160       $   5,306,880       $     5,497,040
             6/30/05)
               Total                   17                 $     407,536       $ 14,785,899        $   15,193,435
Source: Contractor and Office of Occupational Safety and Health

 The following examples describe how the contractor’s actions resulted in Labor terminating 

 FECA benefits for 3 Commerce employees who were on the long-term rolls. 


       	 In May 2000, a claimant was injured while performing Census enumerator duties. In
          November 2002, a doctor provided a second opinion at Labor’s request, finding the
          claimant capable of performing sedentary light-duty work, not exceeding 6 hours. In
          December 2002, the contractor requested medical documentation from Labor to justify
          compensation. Labor did not send the information and the contractor requested a medical
          update in March 2003. In July 2003, a doctor provided a referee opinion, finding the
          claimant was capable of performing job tasks. In July 2004, Labor provided the referee
          report to the contractor after 5 requests. The contractor requested case closure because
          the referee opinion addressed unrelated injuries. As a result, the claimant was released
          for full duty. Labor terminated claimant compensation in February 2005. The June 2005
          chargeback report indicated the claimant received $7,005.39 in total compensation the
          year before Labor terminated benefits.96

       	 In May 2000, an employee filed a workers’ compensation claim for an injury. The
          employee’s supervisor and bureau both immediately disputed the claim. However, Labor
          accepted the claim because the medical report supported the injury. Labor conducted
          second opinions in 2001 and 2002, supporting the injury and indicating the claimant
          could not return to work. In 2003, Labor’s vocational rehabilitation specialist
          recommended the employee undergo a third opinion or referee examination. In January
          2005, the contractor notified Labor it was responsible for the case and immediately
          requested a second opinion. It had been 5 years since the employee was injured. In
          March 2005, the contractor again requested Labor perform a second opinion. The
          employee received an examination in March 2005. The doctor stated the employee had a

 95
    Office of Inspector General has not verified cost avoidance totals from the contractor. The contractor uses a 70
 year life span to compute lifetime cost avoidance. 

 96
    On February 9, 2006, the Office of Inspector General determined that this claimant returned to the long-term rolls, 

 after a hearing on the termination.


                                                          53

                                                          53
U.S. Department of Commerce                                                    Final Report IPE-17536
Office of Inspector General                                                               March 2006

        pre-existing condition before he sustained temporary aggravation from the May 2000
        injury. In addition, the doctor believed the employee should have recovered within two
        months of the injury in May 2000, and was now capable of working eight hours per day
        with restrictions. In April 2005, the contractor requested the claimant’s medical status
        from Labor. On June 8, 2005, the employee’s compensation benefits were terminated
        because the medical report did not support the injury. The June 2005 charge-back
        indicated the claimant received $13,666.44 in total compensation the year before Labor
        terminated benefits.

     	 In July 2000, an employee was injured lifting a heavy box. In 2001, the claimant was
        released to full-time sedentary duty. Labor scheduled a second opinion in 2002. OOSH
        requested a copy of the report, but Labor did not send it. OOSH did not follow up on its
        request for the second opinion report. In December 2004, OOSH sent this long-term case
        to the contractor. The contractor immediately obtained from Labor the second opinion
        releasing the claimant to work. The contractor also questioned whether the medical
        evidence supported continued compensation. Since the second opinion released the
        claimant to work, the contractor requested Labor to review this case. Labor terminated
        the claimant’s compensation. Within 4 months of receiving this case, the contractor
        removed the claimant from the rolls. The June 2005 charge-back report stated the
        claimant received $14,191.60 in total compensation the year before Labor terminated
        benefits.

B. OOSH’s Oversight of the Contractor Is Inadequate

The OOSH workers’ compensation specialist is responsible for monitoring the Department’s
FECA contractor as the contracting officer’s representative, but the specialist did not properly
oversee the contractor since becoming the COR in October 2002.97

No review of contractor cases, work processes, and deliverables. As COR, the specialist is
required to visit the contractor’s facility to verify consistency of service.98 The COR never
visited the facility, nor did any other Commerce staff member, until we began our review. Only
then did OHRM senior managers require the COR to visit the contractor, which she did during
the week of October 3, 2005—2 weeks before our visit.

During her visit, we were told that the COR did not review any cases or the contractor’s quality
assurance processes, and she did not request access to the contractor’s case notes on Commerce
claimants. The case notes offer a detailed look at contractor, Labor, medical, and claimant
correspondence throughout the claim. According to the contractor, its other federal clients
regularly visit the office and insist on access to the notes.

The contract stipulates that the COR must review each deliverable (e.g., case status reports,
monthly reports, case notes) to determine its acceptability, and reject deliverables that do not
meet requirements. Contractor staff told us that the COR had not rejected any deliverables.

97
   The OOSH workers’ compensation specialist was responsible for COR duties from October 2002 until November 

2005 when OHRM reassigned the specialist’s COR duties to the OOSH Director. 

98
   2002 workers’ compensation contract. 


                                                     54

                                                     54
U.S. Department of Commerce                                            Final Report IPE-17536
Office of Inspector General                                                       March 2006

Further, the contractor mails status reports every 90-120 days on periodic roll cases to the COR,
as required by the contract, but we found no visible evidence that the COR reviewed these
reports.

The contractor also sent 17 workers’ compensation case files back to the COR between
December 2004 and April 2005, because of contractual limitations regarding periodic roll cases.
Some cases required OIG referral and/or COR follow up. In 3 of the cases, the contractor
recommended referral to OIG for investigation. The COR did not refer them. In 4 cases, the
contractor requested the COR follow up on the case, however, only two of the case files at
Commerce showed visible evidence that the COR had taken or followed up on the contractor’s
recommended actions.

Although the COR did not explain why she provided limited oversight of the contractor, we
believe multiple factors affected the oversight provided. The first contributing factor was likely
the lack of consistent leadership during her tenure as COR. Five individuals have filled the
OOSH director position since she became COR in 2002. A second factor was that the COR’s
performance plan was vague, stating that, as COR, she “evaluates the performance of the
contractor,” and “monitors the performance level of contracted workers’ compensation services.”
However, the plan did not have any detailed performance criteria for her role as COR. Third,
while the COR had extensive COR training, she did not develop specific performance measures
for the contractor to provide proper oversight of this contract. The COR attended at least 7 COR
training sessions since 2001, 6 of which occurred after the contract was awarded in 2002.

Since our visit to the contractor, the Department has named a new COR, as well as an alternate.
The new COR plans to visit the contractor by the end of June 2006 to review case files, clarify
the terms of the contractual amendment that added 74 of the Department’s long-term claims, and
discuss performance measures and information security.

Given the lack of COR oversight, we were impressed by how well the contractor has been
managing both short and long-term cases. The contractor’s staff has been keeping meticulous
case notes; showing continual follow up with claimants, Labor, and medical personnel; and
making a good effort to return claimants to work.

RECOMMENDATIONS

   1.	 Clarify the role, responsibilities, and performance evaluation measures for the new
       contracting officer’s representative, and alternate COR, for the workers’ compensation
       contract and include them in their performance plans.

   2.	 Ensure that the new COR and alternate COR receive all necessary training, including
       Labor’s FECA course and Commerce’s COR training.

   3.	 Review the COR’s performance several times a year to ensure contract oversight 

       performance is adequate. The new COR should: 

           a.	 Ensure that the contractor complies with all terms and conditions of the contract,
               including training requirements; and

                                               55

                                               55
U.S. Department of Commerce                                           Final Report IPE-17536
Office of Inspector General                                                      March 2006

           b.	 Review the contractor’s performance measures and determine if a revision is
               necessary.



In its response to our draft report, the Department notes that it has taken steps since November
2005 to address the OIG’s concerns regarding contract oversight by appointing a new contracting
officer’s representative. It reported that by the end of June 2006, the new COR will visit the
contractor’s worksite to review files and better monitor contract performance.

C. OHRM Has Not Adequately Addressed Two Issues Involving the Contract

The Department needs to resolve two issues involving the 2002 contract and 2004 contract
amendment. The 2002 contract required the Department and contractor to develop performance
productivity and customer satisfaction metrics during the first year of the contract. However,
neither the Department, nor the contractor, had established these metrics 3 years into the
contract. The contracting officer (CO) stated that all current contracts should include
performance measures, but in 2002, the Department did not emphasize performance measures in
contracts. The CO stated—and we confirmed—that the 2004 amendment included performance
measures. Because performance measures were not included in the 2002 contract, the CO
emphasized that the contractor would have to agree to performance measures being incorporated
into the contract. However, the CO believes the contract should include performance measures.
We agree.

In 2004, the contract was amended to allow the contractor to manage between 74-200 long-term
cases. However, OHRM and the contractor have different interpretations of the meaning of the
contract amendment. There appears to be confusion as to whether the amendment requires the
contractor to manage 74 cases at all times, or if the contractor is simply required to manage a
minimum of 74 cases over each option year.

RECOMMENDATIONS

   1.	 Review the 2002 contract with the contractor to incorporate performance productivity
       and customer satisfaction metrics.

   2.	 Consult with the Office of General Counsel, Contract Law Division, to determine the
       correct interpretation of the terms of the 2004 contract amendment, including whether the
       contractor is required to manage 74 cases at all times or manage a minimum of 74 cases
       over each option year, and ensure that the contract is properly enforced.




                                              56

                                              56
U.S. Department of Commerce                                             Final Report IPE-17536 

Office of Inspector General                                                        March 2006



                          SUMMARY OF RECOMMENDATIONS

We recommend that the Chief Financial Officer and Assistant Secretary for
Administration take the following actions:

   1.	 Review Commerce’s long-term workers’ compensation cases as soon as possible, and not
       over a 2-year period as planned. This review should include:
          a.	 Evaluating the status of each case and physical condition of each claimant to
               identify cases with the best opportunity for returning employees to work,
          b.	 Reviewing Labor’s Agency Query System (AQS) to identify duplicate payments
               and any other overpayments, and
          c.	 Matching claimant names to Social Security records to identify deceased
               claimants (see page 16).

   2.	 Obtain access to contractor case file information to monitor the status of short-term cases
       (see page 16).

   3.	 Follow up on all long-term cases returned by the contractor (see page 16).

   4.	 Review and take appropriate action on cases in contractor status reports (see page 16).

   5.	 Prepare and maintain current, easy-to-access online policies and procedures to help
       Commerce supervisors and managers understand (a) FECA laws and regulations and (b)
       their own FECA roles and responsibilities, including facilitating the return of employees
       to work, verifying and validating charge-back costs, identifying third party liability, and
       detecting and reporting suspected FECA fraud and abuse (see page 19).

   6.	 Develop a training plan, determine which agency personnel need workers’ compensation
       training, and offer the training to them over the coming months, rather than over a 2-year
       period. In the meantime, OOSH should consider utilizing OWCP’s training, including its
       FECA seminar and the FECA supervisor’s workshop, as well as in-house training (see
       page 19).

   7.	 Develop an automated information system that can be used to:
          a.	 Verify and manage Commerce’s FECA caseload, including:
                   i.	 Giving prompts or reminders for dates when paperwork or medical exams
                       are due, and for periodically checking on spouses’ entitlement;
                  ii.	 Identifying cases that need additional action, have closed, or have the
                       potential to return employees to work; and
                 iii.	 Enabling Commerce personnel to analyze and manipulate the data and
                       identify trends and possible abuse.
          b.	 Process workers’ compensation claims online; and
          c.	 Consolidate and analyze standardized bureau safety data to help safety officials
              and managers identify and correct problems and take immediate corrective action
              to help prevent future workplace accidents and illnesses (see pages 21 and 22).

                                                57

                                                57
U.S. Department of Commerce                                            Final Report IPE-17536
Office of Inspector General                                                       March 2006


   8.	 Monitor the medical status of injured and ill employees by:
         a.	 Obtaining medical information from Labor and/or employees’ physicians;
         b.	 Conducting case reviews at Labor district offices;
         c.	 Establishing a relationship with Labor’s liaison staff who can be contacted when
             Labor claims examiners do not respond to written requests; and
         d.	 Arranging and paying for independent medical examinations to determine
             employees’ work capacity, as necessary, if Labor does not take action on
             claimants’ cases (see page 26).

   9.	 Expand OHRM’s recently issued return-to-work procedures to identify specific

       responsibilities for the employee, supervisor, and bureau, including guidance on 

       developing limited- and light-duty positions (see page 26). 


   10. Incorporate creative approaches, such as telework or light-duty work pools across the
       Department, when bureaus cannot make suitable job offers (see page 26).

   11. Determine if suitable job offers can be made for current work capable employees who
       were previously not offered positions and, where possible, return them to work (see page
       26).

   12. Identify third party claims and ensure OOSH, the contractor, and Labor OWCP district
       offices monitor recovery efforts (see page 32).

   13. Educate Commerce safety specialists, administrators, supervisors, employees, and the
       contractor on the importance of adequately identifying third parties and pursuing funds
       from the time the claim is filed (see page 32).

   14. Include responsibilities for identifying and monitoring the pursuit of third parties as
       requirements in future contracts for workers’ compensation management (see page 32).

   15. Direct all bureau managers, OOSH, and the contractor to refer cases of suspected FECA
       fraud, waste, and abuse to the Office of Inspector General and the Department of Labor.
       OOSH and the contractor should also carefully monitor suspected cases of FECA abuse,
       including questionable cases, such as multiple claim submissions from a single employee
       (see page 34).

   16. Revise DAO 202-810 to clearly define the roles and responsibilities of Commerce
       bureaus in managing their workers’ compensation cases, verifying costs, and returning
       employees to work as soon as possible (see page 36).

   17. Improve OHRM’s coordination with bureau supervisors, human resources offices, and
       safety offices, and ensure that each bureau:
           a.	 Designates at least one individual to oversee its workers’ compensation cases and
               coordinate closely with OOSH and the contractor to bring employees off the rolls
               as quickly as possible, and

                                               58

                                               58
U.S. Department of Commerce                                            Final Report IPE-17536 

Office of Inspector General                                                       March 2006


          b.	 Considers incorporating a performance element for minimizing workers’
              compensation costs into the performance plans of appropriate personnel (see page
              36).

   18. Distribute quarterly and annual charge-back reports regularly to all bureaus and instruct
       the bureaus to carefully review and verify the accuracy of the charge-back costs and
       create incentives for them to do so. For example, the Department could use data from the
       charge-back reports to generate a listing of claimants and costs by line office to increase
       their accountability for justifying those costs (see page 39).

   19. Clarify the role, responsibilities, and performance evaluation measures for the new
       contracting officer’s representative, and alternate COR, for the workers’ compensation
       contract and include them in their performance plans (see page 55).

   20. Ensure that the new COR and alternate COR receive all necessary training, including
       Labor’s FECA course and Commerce’s COR training (see page 55).

   21. Review the COR’s performance several times a year to ensure contract oversight
       performance is adequate. The new COR should:
           a.	 Ensure that the contractor complies with all terms and conditions of the contract,
               including training requirements; and
           b.	 Review the contractor’s performance measures and determine if a revision is
               necessary (see pages 55 and 56).

   22. Review the 2002 contract with the contractor to incorporate performance productivity
       and customer satisfaction metrics (see page 56).

   23. Consult with the Office of General Counsel, Contract Law Division, to determine the
       correct interpretation of the terms of the 2004 contract amendment, including whether the
       contractor is required to manage 74 cases at all times or manage a minimum of 74 cases
       over each option year, and ensure that the contract is properly enforced (see page 56).

   We recommend that the Chief Financial Officer and Assistant Secretary for
   Administration, the Director of the Bureau of the Census, and the Director of OHRM
   take the following actions:

   24. Review all Census FECA cases in conjunction with OOSH, and identify those employees
       able to return to work, whether in a full-time or temporary capacity. Take necessary
       actions to bring those employees back to work as soon as possible (see page 43).

   25. Develop a comprehensive FECA program for the 2010 decennial, that includes:
          a.	 Guidance for supervisors/managers on how to handle FECA claims immediately
              upon initiation through case management;
          b.	 A return to work strategy, complete with modified temporary positions to quickly
              bring injured enumerators or others back to work if they are injured during the
              2010 decennial; and

                                               59

                                               59
U.S. Department of Commerce                                           Final Report IPE-17536 

Office of Inspector General                                                      March 2006


          c.	 Identification of current claimants who could be offered a job in the 2010
              decennial preparations and/or operations and brought back to work (see page 43).

   We recommend that the Under Secretary for Intellectual Property and Director,
   USPTO take the following actions:

   26. Actively manage USPTO’s short-term and long-term FECA cases to include:
          a.	 Maintaining well-documented case files,
          b.	 Regularly communicating with all participants in the FECA process,
          c.	 Reviewing files at Labor district offices,
          d.	 Reviewing all existing long-term cases as soon as possible,
          e.	 Periodically evaluating the status of each case and physical condition of each
              claimant for possible return to work,
          f.	 Periodically reviewing Labor’s Agency Query System and charge-back reports to
              identify duplicate payments and any other overpayments, and
          g.	 Periodically matching claimant names to Social Security records to identify
              deceased claimants (see page 49).

   27. Establish a return-to-work program and develop procedures to:
           a.	 Identify specific responsibilities for the employee, supervisor, and USPTO
               workers’ compensation staff,
           b.	 Give supervisors guidance for developing limited- and light-duty positions, and
           c.	 Incorporate creative approaches, such as telework or light-duty work pools with
               the Department, when USPTO cannot make accommodations (see page 49).

   28. Consider implementing an automated system for managing FECA cases see page 49).

   29. Pursue cost-recovery opportunities by more carefully identifying and pursuing third party
       liability (see page 49).

   30. Issue a USPTO administrative order and provide current, online guidance to:
           a.	 Clearly define the FECA roles and responsibilities of USPTO supervisors,
               employees, and workers’ compensation and human resources personnel and
           b.	 Provide pertinent information on FECA laws, regulations, and procedures,
               coordination with the Department of Labor, returning employees to work,
               verifying and validating charge-back costs, identifying and pursuing third party
               liability, and detecting and reporting suspected FECA fraud and abuse (see pages
               49 and 50).

   31. Develop and provide FECA training to all appropriate USPTO personnel (see page 50).

   32. Ensure that performance plans for appropriate staff include workers’ compensation
       responsibilities and supervisors use the plans to oversee the performance of the workers’
       compensation staff (see page 50).



                                               60

                                               60
U.S. Department of Commerce                                      Final Report IPE-17536 

Office of Inspector General                                                 March 2006



                                     APPENDICES
Appendix A - List of Acronyms

AQS:      Agency Query System
BEA:      Bureau of Economic Analysis
BIS:      Bureau of Industry and Security
Census:   Bureau of the Census
CFR:      Code of Federal Regulations
CO:       Contracting Officer
COR:      Contracting Officer’s Representative
DAO:      Department Administrative Order
DOL:      Department of Labor
DOO:      Department Organizational Order
EDA:      Economic Development Administration
ESA:      Economics and Statistics Administration
FECA:     Federal Employees’ Compensation Act
ITA:      International Trade Administration
MBDA:     Minority Business Development Agency
NIST:     National Institute of Standards and Technology
NOAA:     National Oceanic and Atmospheric Administration
NTIA:     National Telecommunications and Information Administration
NTIS:     National Technical Information Service
OHRM:     Office of Human Resources Management
OIG:      Office of Inspector General
OOSH:     Office of Occupational Safety and Health
OS:       Office of the Secretary
OWCP:     Office of Workers’ Compensation Programs
USPTO:    United States Patent and Trademark Office




                                           61

                                           61
U.S. Department of Commerce                                         Final Report IPE-17536 

Office of Inspector General                                                    March 2006



Appendix B - OIG Determined Funds To Be Put To Better Use

                           Issue                       Amount           Page

Savings from overpayments to 2 deceased claimants         $48,000         13

Savings from overpayment to claimant whose
compensation status changed to just medical benefits        6,591         14
                                     Total Amount         $54,591
Source: Office of Inspector General




                                               62

                                               62
U.S. Department of Commerce                                       Final Report IPE-17536 

Office of Inspector General                                                  March 2006


Appendix C - Office of the Secretary’s Response to Draft Report




                                             63

                                             63
U.S. Department of Commerce         Final Report IPE-17536 

Office of Inspector General                    March 2006





                              64

                              64
U.S. Department of Commerce         Final Report IPE-17536 

Office of Inspector General                    March 2006





                              65

                              65
U.S. Department of Commerce         Final Report IPE-17536 

Office of Inspector General                    March 2006





                              66

                              66
U.S. Department of Commerce         Final Report IPE-17536 

Office of Inspector General                    March 2006





                              67

                              67
U.S. Department of Commerce         Final Report IPE-17536 

Office of Inspector General                    March 2006





                              68

                              68
U.S. Department of Commerce         Final Report IPE-17536 

Office of Inspector General                    March 2006





                              69

                              69
U.S. Department of Commerce         Final Report IPE-17536 

Office of Inspector General                    March 2006





                              70

                              70
U.S. Department of Commerce         Final Report IPE-17536 

Office of Inspector General                    March 2006





                              71

                              71
U.S. Department of Commerce         Final Report IPE-17536 

Office of Inspector General                    March 2006





                              72

                              72
U.S. Department of Commerce                      Final Report IPE-17536 

Office of Inspector General                                 March 2006


Appendix D - Census’ Response to Draft Report




                                           73

                                           73
U.S. Department of Commerce         Final Report IPE-17536 

Office of Inspector General                    March 2006





                              74

                              74
U.S. Department of Commerce         Final Report IPE-17536 

Office of Inspector General                    March 2006





                              75

                              75
U.S. Department of Commerce         Final Report IPE-17536 

Office of Inspector General                    March 2006





                              76

                              76
U.S. Department of Commerce         Final Report IPE-17536 

Office of Inspector General                    March 2006





                              77

                              77
U.S. Department of Commerce         Final Report IPE-17536 

Office of Inspector General                    March 2006





                              78

                              78
U.S. Department of Commerce         Final Report IPE-17536 

Office of Inspector General                    March 2006





                              79

                              79
U.S. Department of Commerce         Final Report IPE-17536 

Office of Inspector General                    March 2006





                              80

                              80
U.S. Department of Commerce         Final Report IPE-17536 

Office of Inspector General                    March 2006





                              81

                              81
U.S. Department of Commerce         Final Report IPE-17536 

Office of Inspector General                    March 2006





                              82

                              82
U.S. Department of Commerce                     Final Report IPE-17536 

Office of Inspector General                                March 2006


Appendix E - USPTO’s Response to Draft Report




                                          83

                                          83
U.S. Department of Commerce         Final Report IPE-17536 

Office of Inspector General                    March 2006





                              84

                              84
U.S. Department of Commerce         Final Report IPE-17536 

Office of Inspector General                    March 2006





                              85

                              85
U.S. Department of Commerce         Final Report IPE-17536 

Office of Inspector General                    March 2006





                              86

                              86
